<html>
<title> - USING RESOURCES EFFECTIVELY TO SECURE OUR BORDER AT PORTS OF ENTRY STOPPING THE ILLICIT FLOW OF MONEY, GUNS, AND DRUGS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  USING RESOURCES EFFECTIVELY TO SECURE OUR BORDER AT PORTS OF ENTRY 
          STOPPING THE ILLICIT FLOW OF MONEY, GUNS, AND DRUGS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND

                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2011

                               __________

                           Serial No. 112-15

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
72-225                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
           Michael J. Russell, Staff Director/General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Candice S. Miller, a Representative in Congress 
  from the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     6

                               WITNESSES
                                Panel I

Mr. Thomas Winkowski, Assistant Commissioner, U.S. Customs and 
  Border Protection, Department of Homeland Security:
  Oral Statement.................................................    15
  Joint Prepared Statement.......................................    17

                                Panel II

Mr. Stanley F. Korosec, Vice President, Operations, Blue Water 
  Bridge 
  Canada:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Mr. Timothy J. Koerner, Vice President and Chief Security 
  Officer, CN:
  Oral Statement.................................................    44
  Prepared Statement.............................................    46
Hon. Richard F. Cortez, Mayor, McAllen, Texas:
  Oral Statement.................................................    48
  Prepared Statement.............................................    50

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Statement of Colleen M. Kelley, National President, National 
    Treasury Employees Union.....................................     6
The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security:
  Statement of Nelson H. Balido, President, Border Trade Alliance    36


  USING RESOURCES EFFECTIVELY TO SECURE OUR BORDER AT PORTS OF ENTRY 
          STOPPING THE ILLICIT FLOW OF MONEY, GUNS, AND DRUGS

                              ----------                              


                         Tuesday, April 5, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Rogers, McCaul, Broun, 
Quayle, Rigell, Duncan, Cuellar, Jackson Lee, Higgins, Clarke, 
and Thompson (ex officio).
    Mrs. Miller. Good morning. We are going to try to get the 
committee going here this morning. So I certainly want to 
welcome everyone and, you know, before I make my opening 
comments, I just have a point of personal privilege to the 
committee Members generally. This has nothing to do with the 
witness, and we appreciate him coming today.
    In the interest of efficiency, Government efficiency and 
the Members' time, believe it or not, we do have some issues 
going on in this country that the Congress is trying to deal 
with, whether it is wars that we are already into, may get 
into, continuing resolution, huge budget, et cetera, et cetera. 
So I try to roll things here as we can as effectively and 
efficiently as possible.
    So since I have had this Chairmanship, I have tried to just 
have one panel in an effort to make sure that Congress is able 
to do our responsibility, which is Government oversight. I was 
hopeful that we would be able to mesh our two panels into one 
today. There is no reason that they couldn't be in one panel. 
There certainly is precedent for it.
    However, the Department of Homeland Security--you don't 
need to comment on this, sir, I appreciate your coming--has 
made a decision that we can't have the Department of Homeland 
Security with our other panel because they say that this is a 
time-honored tradition. My response to all of this is last year 
in the other Congress--and I am not going to go through all of 
these cites--I said to my staff, ``Wait a minute, we used to do 
this all the time, what is the big headache here?'' There is 
issue after issue, committee hearing after committee hearing, 
where this has happened in the past.
    If you go to the American taxpayers and say the Department 
of Homeland Security does not want to sit on a panel with other 
people, other stakeholders that they deal with on a regular 
basis and they cannot sit on the same panel because their 
comfort level isn't there, it is the most ridiculous thing I 
have ever heard of. I do intend to take this up with the 
Secretary who is well aware of my position on this. I have to 
tell you, I am one of these folks in Congress who normally 
doesn't get exercised over the small stuff. But this is so 
small, it is below us to even be having this conversation as 
far as I am concerned. If I didn't agree to this, I would just 
tell the committee Members, we would not have had anybody from 
the Department of Homeland Security show up at the committee 
today, because they didn't have their comfort level to be on 
the same panel with our second panel who is not adversarial to 
what we are trying to do. Guess what? Even if they were, 
welcome to the world. Okay?
    How can you have a conversation if you don't even want to 
be on the same table with folks that you might not necessarily 
agree with or might have a differing opinion than yours?
    So that is the point of personal privilege that I want to 
make today. Again, I will be following up with a letter to the 
Secretary as well.
    Mr. Broun. Would the gentlelady yield?
    Mrs. Miller. Yes, I would yield.
    Mr. Broun. I would thank you for yielding, Madam 
Chairwoman. I just want to add to that. I think it is 
preposterous, exactly what is happening here. I just want to 
encourage you as Chairwoman to continue to pursue this, because 
I think it is absolutely inane that they refuse to sit on the 
panel with other folks.
    So I just want to associate myself with what you said and 
just want to amplify that, put an explanation point on it. I 
think it is absolutely preposterous, the Department of Homeland 
Security, the way they are acting on this. I thank you for 
bringing that point of privilege up and I yield back.
    Mrs. Miller. I appreciate the gentleman's comment. I 
recognize the Ranking Member.
    Mr. Cuellar. Thank you very much. As you and I had talked 
earlier this morning, I would be happy to sit down with you and 
with the Homeland folks to see if we can try to put this in the 
most efficient way so we can move this as quickly as possible.
    I know that there were instances where Homeland sat down 
with Boeing. It had more to do with the SBI, because they were 
the contractor. But I certainly want to sit down with the 
Chairwoman and see how we can make this work the next time so 
we don't get any surprises at the very end.
    Mrs. Miller. I certainly appreciate that. One of the things 
that I sincerely want to strive for is a bipartisan approach on 
this committee. Border security is happening in Democratic and 
Republican and independent districts. It is something that this 
committee is focused on to reflect the political will of the 
majority of the American people. We want to do our 
Congressional oversight with the agencies involved, and we want 
to get to our mission. But to not even be willing to sit down 
on a panel with additional stakeholders, I am not sure if that 
is a partisan thing, I don't want to believe that. But I have 
to say I am extremely disappointed.
    At any rate, let us go on with our committee here. Our 
first two hearings examine security between points of entry by 
focusing on the concept of operational control, focusing on the 
right mix of technology, infrastructure, and personnel. Today I 
want to pivot and focus on the security at our ports of entry.
    So this hearing builds on the previous two by examining how 
the Office of Field Operation uses the resources appropriated 
by Congress to stop the illicit flow of money, guns, and drugs. 
When we think about border security, I think one of the first 
things we think about are discussions of Border Patrol agents 
and fences and camera towers, et cetera, all focused on getting 
control of the border again between the ports of entry.
    However, I think it is very important that we understand 
that we face just as serious challenges at the ports of entry 
in our Nation. In fact, a recent Department of Justice report 
said that nearly 90 percent of all the drugs that come into our 
Nation flow through the official ports of entry. They are not 
coming in between the ports of entry. They are coming through 
the actual ports of entry. Where there are drugs, there will be 
money, there will be guns. Make no mistake, the cartels are 
running drugs across the Southwest border. They are very highly 
sophisticated and they are an enemy with one goal, and that is 
certainly for them to make as much money as possible.
    That is why I think we have to be concerned when we have 
fiscal year 2010 Congressional Justifications to Congress that 
indicated that CBP apprehends only 30 to 40 percent of major 
violators like drug traffickers at the air ports of entry and 
less than 30 percent at the land POEs. It does trouble me that 
CBP actually omitted this chart from the fiscal year 2012 
Budget Justification documents to Congress.
    When it comes to National security, we need to do better. 
When it comes to border security, we need to do much better. So 
I will be very interested to hear why those statistics were not 
included in this year's budget documents and what we can do to 
ensure that we are catching the overwhelming majority of drug 
traffickers at or near the border.
    Distribution of manpower at the ports of entry is also a 
concern. Across the various ports of entry, CBP was funded for 
over 20,000 officers in the CR and they have requested over 
21,000 for fiscal year 2012 but it is having trouble exceeding 
the 19,875 agents as of just a few months ago. So we recognize 
that attrition is a big concern for the agency. We will be 
wanting to know, are we hiring enough agents to replace the 
ones we are apparently losing at a fairly quick pace and what 
we are doing to stem attrition, if we can, so that we can keep 
the well-trained men and women of CBP who do a fantastic job, 
the men and women of CBP each and every day, 24/7. Our Nation 
sincerely appreciates all of their service.
    However, I don't think we can secure the border, as we 
mentioned, just using manpower alone. I am also convinced that 
we need to have additional manpower. But something that I know 
many Members of this committee, particularly Mr. Rogers of 
Alabama, have talked about many times are our canines. And they 
certainly are force multipliers that we can and must leverage 
to interdict illegal narcotics, concealed humans, agriculture 
products, et cetera, at our Nation's POEs. However, there are 
roughly the same number of canine teams today as there were in 
2008. So this is something, again, that I think the committee 
will want to get to.
    The Office of the Inspector General noted that although 
canine agents are only actually less than 4 percent of total 
manpower, if we want to call it that, they were credited with 
60 percent of narcotic apprehensions and 40 percent of all 
other apprehensions. I am a big advocate of technology, but I 
can tell you, you can have all the technology and the manpower 
in the world, who is catching most of the drugs? The dogs. The 
dogs are getting the drugs. It is very important I think that 
we look at that.
    Over the last 5 years, the Southwest border has seen the 
largest increase in the number of canines in service at the 
ports of entry, amounting to actually over 60 percent of all 
the canines in service. One port, Laredo, actually has about 20 
percent of all the canines there. However, on the second-
busiest border crossing on the Northern tier, the Blue Water 
Bridge, we only have one dog. We only have one dog there.
    So again, I don't know how we are expected to have our 
agents there stop the flow of drugs on the Northern border 
where we just have one dog at one port and only a few others in 
some of the other sections along the Northern border as well.
    An integral part of our security at our ports is the 
maintenance and, where appropriate, the expansion of port 
infrastructure. We cannot increase manpower at the ports of 
entry if there are not enough truck lanes, passenger lanes, and 
not enough facilities to accommodate an increase in our 
officers.
    The President's stimulus package allocated 720 million for 
the Land POEs and the GSA-owned facilities, and 420 million for 
CBP-owned locations. In three cases, it was allocated to ports 
that CBP had decided to either reduce hours or close 
altogether. So these projects are on hold, but it certainly 
indicates, I think, a lack of foresight with the agency when 
allocating those stimulus dollars.
    Moving forward, I want to ensure that the limited 
infrastructure funds available be targeted in such a way where 
we are looking at volume of traffic, we are prioritizing it so 
that we can maximize both security, as well as expedite the 
flow of commerce and trade into our Nation.
    I think a critical theme of this subcommittee will be 
balance. I certainly will continue to remind CBP that we have 
two borders, but both of them need to be secure. This committee 
certainly wants to work with you to make sure that you have the 
resources to do the very difficult job that you have, the 
mission that we have given you.
    Again, I want to just emphasize that my opening comments 
are no reflection on you or any of the CBP agents, many of whom 
I have had an opportunity to meet. They are just incredible, 
incredible patriots and men and women who do a fantastic job 
for our Nation.
    At this time, I would recognize our Ranking Member, Mr. 
Cuellar for his opening remarks.
    Mr. Cuellar. Thank you, Madam Chairwoman. I appreciate you 
calling today's hearing on security of the American ports of 
entry. As I have said before, as Members representing border 
districts, both yourself and myself, we have areas of common 
interest, both the Northern border and the Southern border. 
Probably chief among them are issues that are related, whether 
it is the Northern or Southern border, and that is to make sure 
that the ports of entry have the necessary resources to operate 
efficiently and effectively, finding that balance between 
trade, tourism, retail, and then providing the security.
    Members, I would ask you to keep one thing in mind; 88 
percent of all the goods and people coming into the United 
States come through land ports. Not through sea ports, not 
through air ports, but through land ports. This is why I am 
very excited about you having this meeting, as we have done in 
the past also to emphasize this.
    I know that Representative Higgins, Representative Clarke, 
also have major ports of entry just like you do also. As 
Members representing border districts, we have special 
appreciation for the U.S. Custom Border Protection task in 
achieving security while ensuring travel and commerce continues 
to move as efficiently as possible.
    I know one of our witnesses, Mayor Cortez, will be talking 
about that. I represent a part of the United States where 
border commerce has become part of the daily life. In the 
border region of South Texas, families understand and value our 
ability to exchange goods with our neighboring United States of 
Mexico and how that benefits them at home. I know that Mayor 
Cortez--I won't go into his testimony, but let me just talk 
about my hometown, Laredo.
    In my hometown of Laredo, it is the largest inland trade 
post in the Southern area, the sixth-largest trade port. This 
is a small community of about only 250,000 individuals. In 
large part it has to do because of the trade that we have. 
While the Nation's unemployment rose, Laredo's unemployment 
remained steady at 8.6, despite having a 30 percent poverty 
level. At the peak of its economic area, Laredo was passing 
13,000 trucks a day. I emphasize, 13,000 trucks a day.
    Every day there is about a billion dollars' worth of trade 
between the United States and Mexico. This is one thing we have 
to keep in mind, why this is so important that we find the 
proper resources and find this balance between security and 
trade and tourism.
    I know that our friends, CBP, they have worked hard and I 
appreciate, Mr. Winkowski, the efforts that you all have been 
doing. I really appreciate the work that you have done. The 
enhancement we have had for security has been something that 
has paid dividends. We certainly have more work to do as the 
Chairwoman said. But again, this is something that we have to 
keep in mind, that we have to continuously be looking for new 
technology, the personnel and, of course, keep in mind that 
some of the footprints that we have, our bridges, there are 
some like the Anzalduas Bridge that the mayor will talk about. 
It is a new one. There is a lot of things that you can do. But 
there are some older bridges, like Bridge No. 1 in Laredo; 
there is a footprint that is so tight that we have got to think 
about how we can provide that security and still provide the 
efficiency of trade and tourism.
    Cross-border travel and commerce is the lifeblood of 
districts like mine and along our Nation's border. It is 
essential to the American economy. We have to find this 
security and this facilitation and we have to know that--to 
have the personnel, the technology, and the infrastructure are 
necessary to secure the ports of entry to make sure that we 
facilitate the trade, tourists, and retail that is so 
important. The more we invest in the resources, the more we can 
enhance both security and facilitation.
    One of the things that, Chairwoman and Members, I think in 
the past we have done an--and I will say this generally. In the 
past we have done a good job in investing in the men and women 
in green, which is our Border Patrol. That is the areas between 
the ports of entry. But we cannot forget our men and women in 
blue, which is our CBP, our Customs folks. Certainly this is 
something that I know we are all on the same page.
    As a side note, I would also encourage CBP to keep in mind 
one thing. We are the oversighters. We provide oversight. I 
would encourage CBP to send us the complete staffing model for 
CBP Office of Field Operation. I think we have asked several 
times. We got some information, it wasn't done then. I know 
that we asked the staffing model for Border Patrol, if you 
recall, at the last meeting. We got something back. It is not 
what the staffing model should be, or at least it is not the 
information that we requested. We are asking the CBP to work 
with us.
    Again, I emphasize we provide oversight and I think we need 
to look at the staffing models so we know how they distribute 
staff at the Northern border and the Southern border both for 
Border Patrol and for CBP. Again, it is part of our oversight.
    So, Madam Chairwoman, I look forward to continuing to work 
with you on these issues. I thank the witnesses for joining us 
here today. Thank you.
    Mrs. Miller. I thank the gentleman.
    Now the Chairwoman recognizes the Ranking Member of the 
full committee, the gentleman from Mississippi, Mr. Thompson, 
for any statement he may have.
    Mr. Thompson. Thank you very much, Madam Chairwoman. I 
would like to ask unanimous consent that a statement provided 
to the committee by the National Treasury Employees Union be 
included in the record for this hearing.
    Mrs. Miller. Without objection.
    [The information follows:]
 Statement of Colleen M. Kelley, National President, National Treasury 
                            Employees Union
                             April 5, 2011
    Chairman Miller, Ranking Member Cuellar, distinguished Members of 
the subcommittee: Thank you for the opportunity to provide this 
testimony. As President of the National Treasury Employees Union 
(NTEU), I have the honor of leading a union that represents over 24,000 
Customs and Border Protection (CBP) Officers and trade enforcement 
specialists who are stationed at 331 land, sea, and air ports of entry 
(POEs) across the United States. CBP employees' mission is to protect 
the Nation's borders at the ports of entry from all threats while 
facilitating legitimate travel and trade. CBP trade compliance 
personnel enforce over 400 U.S. trade and tariff laws and regulations 
in order to ensure a fair and competitive trade environment pursuant to 
existing international agreements and treaties, as well as stemming the 
flow of illegal contraband such as child pornography, illegal arms, 
weapons of mass destruction, and laundered money. CBP is also a revenue 
collection agency, processing approximately 25.8 million trade entries 
a year at the POEs and collecting an estimated $29 billion in Federal 
revenue in 2009.
                          land ports of entry
    The United States has more than 4,000 miles of land border with 
Canada and 1,993 miles of land border with Mexico. Most travelers enter 
the United States through the Nation's 166 land border ports of entry. 
About two-thirds of travelers are foreign nationals and about one-third 
are returning U.S. citizens. The vast majority arrive by vehicle. The 
purpose of the passenger primary inspection process is to determine if 
the person is a U.S. citizen or alien, and if alien, whether the alien 
is entitled to enter the United States. In general, CBP Officers are to 
question travelers about their nationality and purpose of their visit, 
whether they have anything to declare, and review the travel documents 
the traveler is required to present.
    Each day CBP Officers inspect more than 1.1 million passengers and 
pedestrians, including many who reside in border communities who cross 
legally and contribute to the economic prosperity of our country and 
our neighbors. At the U.S. land borders, approximately 2 percent of 
travelers crossing the border are responsible for nearly 48 percent of 
all cross-border trips. At the land ports, passenger primary 
inspections are expected to be conducted in less than 1 minute. 
According to CBP, for regular lanes the average inspection time per 
vehicle is 30 to 45 seconds during which CBP Officers should handle 
documents for all vehicle occupants and, if necessary, detain and 
transfer suspected violators to secondary inspection. For FAST truck 
lanes, the average processing time is 15 to 20 seconds. (``CBP: 
Challenges and Opportunities'' Memo prepared by Armand Peschard-
Sverdrup for: Mexico's Ministry of the Economy: U.S.-Mexico Border 
Facilitation Working Group. January 2008, page 5.)
    In fiscal 2010, CBP Officers and CBP Agriculture Specialists at the 
331 POEs inspected 352 million travelers and more than 105.8 million 
conveyances--cars, trucks, buses, trains, vessels, and aircraft. Out of 
the total 331 official POEs, currently only 24 major land POEs are 
situated on the Mexico-U.S. border: Six in California, seven in 
Arizona, one in New Mexico, and ten in Texas. On the Canadian-U.S. 
border there are 150 land POEs. Land POEs have a series of dedicated 
lanes for processing commercial traffic, passenger vehicles, 
pedestrians, and in some cases rail crossings.
    Between the United States and Mexico, 68.4 percent of the total 
commercial two-way truck trade flow crossed through three land POEs--
Laredo, El Paso, and Otay Mesa. In rail traffic, trade is heavily 
concentrated (97.8%) in five rail POEs--Laredo, Eagle Pass, El Paso, 
Nogales, and Brownsville (``Facilitating Legal Commerce and Transit.'' 
2009 Memo prepared by Armand Peschard-Sverdrup for the Pacific Council/
COMEXI Joint Task Force on Re-thinking the Mexico-U.S. Border: Seeking 
Cooperative Solutions to Common Problems, page 2).
    Each year, 45 million vehicles cross into the United States from 
Canada. Most of the trucks use 22 principal border crossings. By 2020, 
the volume of truck traffic is projected to grow to 19.2 million per 
year, an increase of 63% from 11.8 million in 1999. The six highest-
volume crossings on the Canada-U.S. border handled almost 90% of the 
value and three-quarters of the tonnage and truck trips. According to 
the most recent data NTEU has, the six highest U.S.-Canada POEs are 
Ambassador Bridge (Detroit, Michigan), Peace Bridge (Buffalo, New 
York), Blue Water Bridge (Michigan), Lewiston-Queenston Bridge (New 
York), Blaine (Washington), and Champlain (New York). (``Truck Freight 
Crossing the Canada-U.S. Border,'' September 2002, page 2, 6.)
    Preventing the flow of arms, drugs, other contraband, pirated 
merchandise, and undeclared cash, and invasive agricultural items, 
while at the same time facilitating trade and the legal movement of 
people as efficiently as possible is a daily challenge for CBP Officers 
and Agriculture Specialists at the land POEs.
               border violence at u.s.-mexico land ports
    In the past 5 years, a new challenge also confronts CBP personnel 
at the southwest land POEs. An epidemic of violence has erupted right 
across the U.S. Southern border in Mexico due to an increase in Mexican 
drug cartel activity there and the crackdown on drug and human 
traffickers by the Mexican government. Drug violence in northern Mexico 
has skyrocketed with more than 35,000 killed over the last 5 years. 
This violence is fueled by arms smuggling and bulk cash drug proceeds 
transiting south from the United States. The incidence of violence is 
escalating daily at or near U.S.-Mexico POEs.
    NTEU is providing information to Congress and the administration to 
help assess security equipment and other needs to address the increased 
threat to CBP personnel at the Southern border. Safety of CBP Officers 
at the ports of entry is a major concern. Appropriate facilities, 
staffing, and equipment are necessary at the Southern land ports to 
ensure CBP Officers' safety.
    The fiscal year 2010 DHS funding bill included $8.1 million for 65 
CBP Officers and 8 support staff positions to be dedicated to 
``Combating Southbound Firearms and Currency Smuggling.'' NTEU believes 
that this staffing increase remains insufficient to address the 
staffing needs at southern ports of entry. Outbound enforcement remains 
a particular challenge. For example, according to the Government 
Accountability Office (GAO), ``from March 2009 through February 22, 
2011 . . . CBP Officers seized about $67 million in illicit bulk cash 
leaving the country at land POEs . . . the National Drug Intelligence 
Center estimates that criminals smuggle $18 billion to $39 billion a 
year across the southwest border, and that the flow of cash across the 
northern border with Canada is also significant.'' (``DHS Progress and 
Challengers in Security the U.S. Southwest and Northern Borders,'' GAO-
11-508T, page 7.)
                   cbp staffing at the ports of entry
    In October 2009, the Southwest Border Task Force, created by 
Homeland Security Secretary Janet Napolitano, presented the results of 
its staffing and resources review in a draft report. This draft report 
recommends the ``federal government should hire more Customs [and 
Border Protection] officers.'' The report echoes the finding of the 
Border-Facilitation Working Group. (The U.S.-Mexico Border Facilitation 
Working Group was created during the bilateral meeting between 
President George W. Bush and President Felipe Calderon held in Merida 
in March 2007.) ``In order to more optimally operate the various ports 
of entry, CBP needs to increase the number of CBP Officers. According 
to its own estimate, the lack of human resources only for the San 
Ysdiro POE is in the ``hundreds'' and the CBP Officer need at all ports 
of entry located along the border with Mexico is in the ``thousands.'' 
(``CBP: Challenges and Opportunities'' a memo prepared by Armand 
Peschard-Sverdrup for Mexico's Ministry of the Economy: U.S.-Mexico 
Border Facilitation Working Group, January 2008, pages 1 and 2.) It 
should be noted that the number of inspection booths at San Ysidro POE 
will increase from 24 booths to 63 inspection booths in the near 
future.
    The administration's fiscal year 2012 budget requests funds for 
21,186 CBP Officer positions--an increase of 409 over fiscal year 2011, 
but still 108 officers below the fiscal year 2009 level of 21,294 CBP 
Officer positions. NTEU is disappointed that the fiscal year 2012 
budget request includes no significant increase in frontline CBP 
Officer or CBP Agriculture Specialist positions. After a net decrease 
of over 500 CBP Officer positions between 2009 and 2011, CBP is seeking 
appropriated funding to ``support 300 CBP Officers above the fiscal 
year 2011 budget and additional canine assets to the Port of Entry 
operations,'' despite independent studies that state that CBP is 
understaffed at ports of entry by thousands of officers.
    Of particular concern to NTEU in the fiscal year 2012 budget 
request, is the decrease of $20 million in funding for inspectional 
overtime at the air, land, and sea ports of entry. CBP states that 
``proposed efficiency will require POE[s] to reduce overtime spending 
during periods of increased workload, including but not limited to, the 
annual peak summer seasons at our Nation's air and seaports.''
    Overtime is essential when staffing levels are low to ensure that 
inspectional duties can be fulfilled, officers have sufficient back-up 
and wait times are mitigated. This is one reason why Congress 
authorized a dedicated funding source to pay for overtime--customs user 
fees pursuant to Title 19, section 58c(f) of the U.S. Code. CBP 
collects user fees to recover certain costs incurred for processing, 
among other things, air and sea passengers, and various private and 
commercial land, sea, air, and rail carriers and shipments.
    The source of these user fees are commercial vessels, commercial 
vehicle, rail cars, private aircraft, private vessels, air passengers, 
sea passengers, cruise vessel passengers, dutiable mail, customs broker 
and barge/bulk carriers. These fees are deposited into the Customs User 
Fee Account. User Fees are designated by statute to pay for services 
provided to the user, such as inspectional overtime for passenger and 
commercial vehicle inspection during overtime shift hours. In addition, 
APHIS user fees and immigration user fees also fund ``fee-related'' 
inspection costs. User fees have not been increased in years and some 
of these user fees cover only a portion of recoverable fee-related 
costs. For example, CBP collects the extraordinarily low fee of $437 at 
arrival of a commercial vessel to a port to recover personnel and other 
costs to process and inspect the vessel's crew and cargo. This fee, 
however, is capped at $5,955 per calendar year; no matter how many 
times the commercial vessel enters a port that year. This fee was last 
raised from $397 to $437 in 2007, but the cap has remained at $5,955 
since 1986. Another example of an extraordinarily low user fee is the 
fee paid by railcar owners of $8.25 per car at arrival for processing 
and inspection, but the fee is capped at $100 per railcar per calendar 
year.
    CBP is seeking legislation to lift the exemption of passengers 
arriving from Canada, Mexico, most of the Caribbean Islands and U.S. 
territories from payment of the $5.50 per arrival fee for air and sea 
traveler processing and inspection. NTEU supports lifting these user 
fee exemptions allowing CBP to more fully recover the costs of 
passenger processing and inspection, but believes that Congress should 
review all user fees collected by CBP with an eye to more fully 
recovering CBP's costs of these services to the user.
 challenges with facilitating legal trade vs. stopping illicit flow of 
                         money, guns, and drugs
    Cross-border commercial operators are acutely concerned about wait 
times and costs of delay at the land POEs. Wait times differ across 
POEs and vary depending on whether the congestion involves pedestrians, 
passenger vehicles, trucks, or railcars and whether the ports 
participate in expedited crossing programs such as SENTRI for people or 
FAST (Free and Secure Trade) lanes for trucks and railcars that are 
certified as compliant with the Customs Trade Partnership Against 
Terrorism (C-TPAT) agreement. Wait times also vary with the day of the 
week and the time of day and holidays on either side of the border. 
Currently, not all available lanes are staffed to capacity. Antiquated 
port infrastructure and CBP personnel staffing shortages contribute 
directly to wait times at the land POEs.
    NTEU believes that there is no way you can speed up the inspection 
process in which CBP Officers are currently conducting primary 
inspections in 30 to 40 seconds without increasing staffing. NTEU's 
position was confirmed by the October 2009 draft report of the 
Southwest Border Task Force created by Homeland Security Secretary 
Janet Napolitano that recommends the ``federal government should hire 
more Customs [and Border Protection] officers.''
    The report echoes the finding of the Border-Facilitation Working 
Group. (The U.S.-Mexico Border Facilitation Working Group was created 
during the bilateral meeting between President George W. Bush and 
President Felipe Calderon held in Merida in March 2007.) ``In order to 
more optimally operate the various ports of entry, CBP needs to 
increase the number of CBP Officers. According to its own estimate, the 
lack of human resources only for the San Ysdiro POE is in the 
``hundreds'' and the CBP Officer need at all ports of entry located 
along the border with Mexico is in the ``thousands.'' (``CBP: 
Challenges and Opportunities'' page 1 and 2. Memo prepared by Armand 
Peschard-Sverdrup for: Mexico's Ministry of the Economy: U.S.-Mexico 
Border Facilitation Working Group. January 2008.)
    In 2007, in a GAO report entitled ``Border Security: Despite 
Progress, Weaknesses in Traveler Inspections Exist at Our Nation's 
Ports of Entry'' (GAO-08-219), GAO found that:
  <bullet> CBP needs several thousand additional CBP Officers and 
        Agriculture Specialists at its ports of entry.
  <bullet> Not having sufficient staff contributes to morale problems, 
        fatigue, and safety issues for CBP Officers.
  <bullet> Staffing challenges force ports to choose between port 
        operations and providing training.
  <bullet> CBP's on-board staffing level is below budgeted levels, 
        partly due to high attrition, with ports of entry losing 
        officers faster than they can hire replacements.
    The conclusions of this report echo what NTEU has been saying for 
years and, in order to assess CBP Officer and CBP Agriculture 
Specialists staffing needs, Congress, in its fiscal year 2007 DHS 
appropriations conference report, directed CBP to submit by January 23, 
2007 a resource allocation model for current and future year staffing 
requirements.
    In July 2007, CBP provided GAO with the results of the staffing 
model. The GAO reported that ``the model's results showed that CBP 
would need up to several thousand additional CBP officers and 
agricultural specialists at its ports of entry.'' (See GAO-08-219, page 
31) And the Washington Post reported that ``the agency needs 1,600 to 
4,000 more officers and agricultural specialists at the nation's air, 
land and sea ports, or a boost of 7 to 25 percent.'' (November 6, 
2007).
    The staffing model reinforces the findings of the Border 
Facilitation Working Group--``when you look at the budgets that are 
normally handed out to CBP to POEs, one can conclude that this unit has 
been traditionally under-funded.'' (See ``CBP: Challenges and 
Opportunities,'' page 1.) To date, however, it is NTEU's understanding 
that CBP's POE staffing model has not been made public or even 
available for Congress to review.
                      impact of staffing shortages
    According to GAO, ``At seven of the eight major ports we visited, 
officers and managers told us that not having sufficient staff 
contributes to morale problems, fatigue, lack of backup support and 
safety issues when officers inspect travelers--increasing the potential 
that terrorists, inadmissible travelers and illicit goods could enter 
the country.'' (See GAO-08-219, page 7.)
    ``Due to staffing shortages, ports of entry rely on overtime to 
accomplish their inspection responsibilities. Double shifts can result 
in officer fatigue--officer fatigue caused by excessive overtime 
negatively affected inspections at ports of entry. On occasion, 
officers said they are called upon to work 16-hour shifts, spending 
long stints in primary passenger processing lanes in order to keep 
lanes open, in part to minimize traveler wait times. Further evidence 
of fatigue came from officers who said that CBP officers call in sick 
due to exhaustion, in part to avoid mandatory overtime, which in turn 
exacerbates the staffing challenges faced by the ports.'' (See GAO-08-
219, page 33.)
    Staffing shortages have also reduced the number of CBP Officers 
available to conduct more in-depth secondary inspections. In the past, 
there were three inspectors in secondary processing for every one 
inspector in primary processing. Now there is a one to one ratio. This 
has resulted in a dramatic reduction in the number of illegal cargo 
seizures. For example, at the Port of Sweet Grass, Montana, from 2000 
through 2007, there has been a 59% reduction in the number of seizures 
of illegal drugs, hazardous imports, and other contraband. Port-by-port 
seizure data is deemed law enforcement sensitive and it is now very 
difficult to compare number of seizures at a port from year to year.
    Without adequate personnel at secondary, wait times back up and 
searches are not done to specifications. This is a significant cargo 
security issue. A full search of one vehicle for counterfeit currency 
will take two officers on average a minimum of 45 minutes. Frequently, 
only one CBP Officer is available for this type of search and this type 
of search will then take well over an hour.
    Finally, NTEU has been told that when wait times in primary 
inspection becomes excessive in the opinion of the agency, CBP Officers 
are instructed to query only one occupant of a vehicle and to suspend 
COMPEX (Compliance Enforcement Exams) and other automated referral to 
secondary programs during these periods. This is an improvement over 
the past practice of lane flushing, but is still a significant security 
issue. Also, when primary processing lanes become backed up, passenger 
vehicles are diverted to commercial lanes for processing
    Again NTEU concurs with the October 2009 Homeland Security Advisory 
Council Southwest Border Task Force Draft Report that calls on Congress 
to authorize funding to increase staffing levels for CBP Officers. NTEU 
urges Congress to authorize funding for CBP Officers and CBP 
Agriculture Specialists at the levels specified in CBP's own workforce 
staffing model, in addition to funding an increase in CBP Officer 
staffing needed to expand outbound inspection and address the 
increasing violence at the U.S.-Mexico border.
    NTEU also strongly supports legislation expected again to be 
reintroduced shortly by Representative Silvestre Reyes (D-TX) entitled 
``Putting Our Resources Towards Security (PORTS) Act.'' Representative 
Reyes' PORTS Act would authorize 5,000 additional CBP Officers and 
1,200 additional CBP AS new hires, in addition to 350 border security 
support personnel at the Nation's 331 official ports of entry over the 
next 5 years. In addition, the bill authorizes funding for 
infrastructure improvements at the existing ports of entry to repair 
and improve the gateways into our country.
                  cbp agriculture specialist staffing
    In 2008, NTEU was certified as the labor union representative of 
CBP Agriculture Specialists as the result of an election to represent 
all Customs and Border Protection employees that had been consolidated 
into one bargaining unit by merging the port of entry inspection 
functions of Customs, INS and the Animal and Plant Inspection Service 
as part of DHS' One Face at the Border initiative.
    According to GAO-08-219 page 31, CBP's staffing model ``showed that 
CBP would need up to several thousand additional CBP Officers and 
agriculture specialists at its ports of entry.'' And GAO testimony 
issued on October 3, 2007 stated that, ``as of mid-August 2007, CBP had 
2,116 agriculture specialists on staff, compared with 3,154 specialists 
needed, according to staffing model.'' (See GAO-08-96T page 1.)
    CBP fiscal year 2012 budget request includes funding for 2,394, CBP 
Agriculture Specialists, 760 short of those needed, according to CBP's 
own staffing model.
    Also, NTEU continues to have concerns with CBP's stated intention 
to change its staffing model design to reflect only allocations of 
existing resources and no longer account for optimal staffing levels to 
accomplish their mission.
    Finally, NTEU strongly supports Section 805 of S. 3623, a bill 
introduced in the Senate in 2009 that, through oversight and statutory 
language, makes clear that the agricultural inspection mission is a 
priority. The legislation increases CBP Agriculture Specialist 
staffing, and imposes an Agriculture Specialist career ladder and 
specialized chain of command.
                       end one face at the border
    In 2003, DHS created a new Customs and Border Protection Officer 
position and announced the ``One Face at the Border'' initiative that 
purportedly unifies the inspection process for travelers and cargo 
entering the United States. In practice, the major reorganization of 
the roles and responsibility of the inspectional workforce as a result 
of the One Face at the Border initiative has resulted in job 
responsibility overload and dilution of the customs, immigration, and 
agriculture inspection specializations and in weakening the quality of 
passenger and cargo inspections.
    NTEU believes the One Face at the Border initiative has failed to 
integrate the different border functions it sought to make 
interchangeable, because they are not. The Customs, Immigration, and 
Agriculture functions performed at our borders enforce different laws 
and require different training and skills. Consolidating Immigration 
and Customs inspection functions has caused logistical and 
institutional weakness resulting in a loss of expertise in critical 
homeland security priorities.
    For these reasons, NTEU urges CBP to reinstate Customs and 
Immigration specializations, as it did with the Agriculture 
specialization, at the POEs. The ``One Face'' initiative should be 
ended, Customs and Immigration specializations should be reestablished 
within CBP, and overall CBP inspection staffing should be increased.
    NTEU suggests that the committees include the following provision 
in any upcoming CBP authorization.

``SEC. __. ESTABLISHMENT OF SPECIALIZED CBP OFFICER OCCUPATIONS.--The 
Secretary of Homeland Security shall establish within the Bureau of 
Customs and Border Protection two distinct inspectional specialization 
occupations for Customs and Border Protection Officers at the air, sea, 
and land ports of entry; an immigration inspection specialization and a 
customs inspection specialization.''
           ratio of cbp supervisors to frontline cbp officers
    NTEU continues to have concerns that CBP is continuing to increase 
the number of supervisors when a much greater need exists for new 
frontline hires. In terms of real numbers, since CBP was created, the 
number of new managers has increased at a much higher rate than the 
number of new frontline CBP hires. According to GAO, the number of CBP 
Officers has increased from 18,001 in October 2003 to 18,382 in 
February 2006, an increase of 381 officers. In contrast, GS 12-15 CBP 
supervisors on board as of October 2003 were 2,262 and in February 2006 
there were 2,731, an increase of 462 managers over the same of time. 
This is a 17% increase in CBP managers and only a 2% increase in the 
number of frontline CBP Officers. (See GAO-06-751R, page 11).
    In 2009, CBP reports that there were 19,726 CBP Officers of which 
16,360 were bargaining unit frontline employees--a ratio of one 
supervisor for every five CBP Officers. According to CBP data, in 2009, 
the number of CBP Agriculture Specialists was 2,277, of which 312 were 
non-frontline supervisors--a ratio of one supervisor for every six CBP 
Agriculture Specialists.
               trade enforcement and compliance staffing
    When CBP was created, it was given a dual mission of safeguarding 
our Nation's borders and ports as well as regulating and facilitating 
international trade. It also collects import duties and enforces U.S. 
trade laws. In 2005, CBP processed 29 million trade entries and 
collected $31.4 billion in revenue. In 2009, CBP collected $29 
billion--a drop of over $2 billion in revenue collected. Since CBP was 
established in March 2003, there has been no increase in CBP trade 
enforcement and compliance personnel and again, the fiscal year 2012 
budget proposes no increase in FTEs for CBP trade operations personnel.
    In effect, there has been a CBP trade staffing freeze at March 2003 
levels and, as a result, CBP's revenue function has suffered. Recently, 
in response to an Import Specialists staffing shortage, CBP has 
proposed to implement at certain ports a tariff sharing scheme. For 
example, because CBP has frozen at 984 Nation-wide the total number of 
Import Specialist positions, CBP is reducing by 52 positions (from 179 
to 127) the number of Import Specialists at the New York City area 
ports and shifting those positions to other ports. To address the 
resultant shortage of Import Specialists at New York area ports, CBP is 
implementing tariff sharing between the port of New York/Newark and JFK 
airport. Currently, each port (Newark and JFK) processes all types of 
entries and all types of commodities via the Harmonized Tariff Schedule 
(HTS).
    The reduction in trade personnel has resulted in each port being 
assigned only parts of the HTS and each port only processing half the 
commodities entering its port. Tariff sharing presents a number of 
operational problems with regard to trade personnel performing cargo 
exams on merchandise that is unloaded at the port of Newark, but the 
only commodity teams that are trained to process it are at JFK and, 
vice versa, when merchandise that can only be processed in Newark, is 
unloaded at JFK. CBP proposes that instead of physical examinations of 
the merchandise, digital photos can be exchanged between the ports. 
This is a short-sighted solution that shortchanges taxpayers, trade 
compliant importers, and the Federal treasury.
    The fiscal year 2012 budget requests funding for CBP's enforcement 
program to ``prevent trade in counterfeit and pirated goods, and 
enforce exclusion orders on patent-infringing and other Intellectual 
Property Rights violative goods.'' This request, however, includes no 
increase in CBP trade operations staff at the POEs to implement this 
trade enforcement program.
                    recruitment and retention issues
    NTEU is pleased to commend Congress and the Department for 
addressing two major CBP Officer recruitment and retention challenges--
lack of law enforcement officer retirement status and a lower rate of 
journeyman pay than most other Federal law enforcement occupations. In 
July 2006, Congress extended enhanced retirement prospectively to CBP 
Officers and in October 2009, CBP announced an increase in the rate of 
CBP Officer and CBP Agriculture Specialists journeyman pay from GS-11 
to GS-12.
    According to GAO, however, up to 1,200 CBP Officers a year are lost 
to attrition and current hires are not keeping pace with this attrition 
rate. NTEU expects that the extension of enhanced retirement and 
increasing journeyman pay will help to attract and recruit new hires to 
keep pace with attrition and achieve staffing levels currently 
authorized. Since it usually takes about 1\1/2\ years to recruit, hire, 
and train a CBP Officer, however, Congress needs to increase CBP 
Officer staffing levels now to keep pace with current attrition rates.
    NTEU commends the Department for increasing journeyman pay for CBP 
Officers and Agriculture Specialists. Many deserving CBP trade and 
security positions, however, were left out of this pay increase, which 
has significantly damaged morale. NTEU strongly supports extending this 
same career ladder increase to additional CBP positions, including CBP 
trade operations specialists and CBP Seized Property Specialists. The 
journeyman pay level for the CBP Technicians who perform important 
commercial trade and administration duties should also be increased 
from GS-7 to GS-9.
                         infrastructure issues
    ``The average land POE is 40-45 years old. Urban sprawl has 
enveloped some of these ports, rendering them effectively landlocked . 
. . Over time, eroding infrastructure and limits on the availability of 
land--along with projected growth in the legal movement of goods and 
people stemming from the continued deepening of economic integration--
will require both governments to erect new infrastructure.'' (See 
``Facilitating Legal Commerce and Transit'' by Armand Peschard-
Sverdrup, page 4).
    Infrastructure issues vary from port to port. NTEU does not dispute 
that the infrastructure problems at the POEs need to be addressed. But 
all port infrastructure solutions, including constructing additional 
24-hour port facilities, will take years to achieve. What is necessary 
today is to staff all existing lanes and to start now to recruit 
additional personnel to staff proposed new lanes to capacity. Without 
adequate staffing to achieve this, excessive overtime practices, as 
well as increased wait times, will continue.
    For example, ``Congress allocated $184 million to double the size 
of the Mariposa Port of Entry in western Nogales through the American 
Recovery and Reinvestment Act, also known as the stimulus package. But 
it did not set aside money to hire the 150 additional officers needed 
to fully staff the port when it's completed in 3 years. Already, time-
consuming searches and seizures at the three busy Nogales ports mean 
there aren't enough inspectors to keep all the lanes open--resulting in 
waits of up to 4 hours to cross the border on holiday weekends or 
during the winter produce season. Without more officers, the 4-year 
upgrade of the port could be a waste.'' (``New Lanes at Border Face 
Lack of Staffing,'' Arizona Daily Star, February 27, 2011.)
    Also, the observations and suggestions of front-line CBP Officers 
should be taken into account when planning new infrastructure 
solutions. For example, since before 9/11, the lack of a manned egress 
point for the Cargo Inspection facility at the Port of Blaine has been 
noted by numerous port runner incidents. After years of lobbying by 
Officers, Blaine has a manned egress booth, but it is not staffed 24/7, 
and the CBP Officer assigned to the exit booth has no way to physically 
stop a vehicle and driver who want to run the port. There are no gates, 
no tire shredders, or deployable bollards at the new egress point. 
Pulling into secondary is still largely dependent on the honor system. 
This new manned egress point intercepts the lost drivers, and the 
drivers who can't understand instructions from the primary officer, but 
it doesn't stop deliberate port runners.
                           technology issues
    Customs and Border Protection relies on technology to process 
border crossings both in-bound and out-bound with greater efficiency 
and speed. To compensate for the inadequacy of personnel at land POEs, 
CBP is relying more on technology, such as Radiation Portal Monitors 
(RPM) and Radio Frequency Identification (RFID). According to GAO, 
however, ``as of March 2011, license plate readers were available at 48 
of 118 outbound lanes on the southwest border but none of the 179 
outbound lanes on the northern border.'' (``DHS Progress and 
Challengers in Security the U.S. Southwest and Northern Borders,'' GAO-
11-508T, page 7.)
    Technological advances are important, but without the training and 
experience, technology alone would have failed to stop the millennium 
bomber at Port Angeles, Washington. Today, primary processing is 
increasingly dependent on technology. CBP Officers are instructed to 
clear vehicles within 30 seconds. That is just enough time to run the 
license through the plate reader and check identifications on a data 
base. If the documents are in order the vehicle is waived through. The 
majority of a CBP Officers' time is spent processing I-94s, documents 
non-resident aliens need to enter the United States.
    Also, technology improvements can't overcome deficiencies in 
equipment and in port infrastructure. For example, DHS recently touted 
as a money-saving effort the transferring excess IT equipment within 
the Department rather than buying new equipment. NTEU has learned that 
at the El Paso cargo facility, CBP Officers ``barely get by with the 
old computers'' they inherited 3 months ago when the facility received 
newer, yet used, computers handed down from the CBP training facility 
in Artesia, NM. It is questionable if this practice is efficient or 
effective.
    Also, expedited inspection programs, such as FAST, work very well 
for the participants in these programs in that their clearance process 
is reduced. CBP, however, needs a higher level of verification of FAST 
participants because of the higher risk their expedited clearance 
creates. For example, at the Blaine POE, many of CBP Officer's 
narcotics seizures have come out of FAST-approved Carriers and 
Consignees. Expedited inspection programs such as FAST and C-TPAT, 
require additional CBP Officers to conduct these verifications.
                          nteu recommendations
    As noted by DHS's own Advisory Council, for too long, CBP at the 
POEs has been unfunded and understaffed. DHS employees represented by 
NTEU are capable and committed to the varied missions of the agency 
from border control to the facilitation of trade into and out of the 
United States. They are proud of their part in keeping our country free 
from terrorism, our neighborhoods safe from drugs, and our economy safe 
from illegal trade. The American public expects its borders and ports 
be properly defended.
    Congress must show the public that it is serious about protecting 
the homeland by:
  <bullet> increasing both port security and trade enforcement staffing 
        at the ports of entry to the level recommended by the draft 
        September 2009 Homeland Security Advisory Council Report and 
        Recommendations;
  <bullet> fully staffing all existing lanes and booths at the POEs to 
        capacity;
  <bullet> ending the One Face at the Border initiative by 
        reestablishing CBP Officer and CBP Agriculture Specialist 
        inspection specialization;
  <bullet> extending career ladder pay increases to additional CBP 
        personnel including CBP trade operations specialists, CBP 
        Seized Property Specialists and CBP Technicians,
  <bullet> ensuring that CBP Officers' and Agriculture Specialists' 
        overtime and premium pay system is fully funded; and
  <bullet> requiring CBP to submit a yearly workplace staffing model 
        that include optimal staffing requirements for each POE to 
        fully staff all lanes and reduce wait times.
    The more than 24,000 CBP employees represented by the NTEU are 
capable and committed to the varied missions of DHS from border control 
to the facilitation of legitimate trade and travel. They are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs and our economy safe from illegal trade. 
These men and women are deserving of more resources and technology to 
perform their jobs better and more efficiently.
    Thank you for the opportunity to submit this testimony to the 
committee on their behalf.

    Mr. Thompson. Thank you again, Madam Chairwoman, for 
conducting this hearing. Often when we talk about securing 
America's borders, the focus is on challenges between the 
Nation's ports of entry. However, securing those areas is only 
one part of achieving border security. That is why I am pleased 
that today's subcommittee is also examining the challenges we 
face in our Nation's ports of entry.
    During the previous two Congresses, this committee held 
several hearings examining these issues, both here in 
Washington and out in the field along our Northern and Southern 
borders. The committee received testimony from Federal 
officials, local community members, and border stakeholders to 
solicit first-hand perspectives on the challenges involved in 
securing ports of entry.
    We also had the opportunity to see Customs and Border 
Protection efforts to interdict guns, drugs, and money smuggled 
through the ports of entry, as well as individuals attempting 
to enter the country illegally.
    In recent years, DHS has made significant strides towards 
securing our border crossings. For example, DHS was 
instrumental in implementing the Western Hemisphere Travel 
Initiative, helping ensure that travelers have the appropriate 
documents entering the country. DHS also has placed an 
increased emphasis on stopping the flow of weapons and cash 
into Mexico by conducting inspections of southbound vehicles 
and screening 100 percent of southbound rail shipments for 
contraband. These efforts and others are paying off.
    In the last 2 fiscal years, DHS personnel interdicted more 
than 6,800 firearm and more than 7 million pounds of drugs, 
which represents a 28 percent and 16.5 percent increase 
respectively over the previous 2 years. DHS also seized $282 
million in illicit currency along the southwest border, a 35 
percent increase compared to the previous years.
    Of course, much more remains to be done. We know that the 
Government Accountability Office, that thousands of more Custom 
and Border Protection officers are needed to secure the ports 
of entry. Also, aging infrastructure needs to be updated to 
accommodate increased traffic and modern security technologies.
    Unfortunately, H.R. 1, the Republican continuing 
appropriation bill, fails to fund these security priorities and 
instead would cut the funding for DHS border security programs.
    I would also note that the title of today's hearing 
references only securing concerns like guns, drugs, and cash 
smuggling. However, I hope that the discussion will also 
include the need to expedite the flow of legitimate trade and 
travel. Crossborder commerce is essential not only to border 
communities, but to the American economy as a whole. Indeed, 
Canada and Mexico are the United States' second- and third-
largest trading partners and the first and second biggest 
market for U.S. exports. Congestion in our Nation's ports of 
entry serves as a hidden tax on the American consumer as 
business interests pass the cost incurred by delays onto the 
public at large.
    We are fortunate to have Representative Cuellar, the 
Ranking Member of the committee, as a Member representing a 
district along the U.S.-Mexican border. He knows these issues 
very well. Representative Higgins and Clarke represent 
districts along the U.S. Canadian border and also have first-
hand expertise in these matters. These Members understand the 
need to secure our ports of entry, but also the need to do so 
while expediting trusted travelers and low-risk cargo into the 
United States. They know the importance of these efforts, both 
in their districts and to our Nation. Therefore, I look forward 
to the hearing on their thoughts and the topic before us today. 
I thank the witnesses for joining us also today.
    Mrs. Miller. I thank the gentleman for his comments.
    Other Members of the committee are reminded that opening 
statements might be entered into the record.
    We go to our witness now. Mr. Winkowski was appointed the 
Assistant Commissioner, Office of Field Operations, in August 
2007. He is responsible for operations at 20 major field 
offices, 331 ports of entry, 58 operational container security 
initiative ports, and 15 preclearance stations in Canada, 
Ireland, and the Caribbean. Previously he served as Director of 
Field Operations in Miami, where he was responsible for 
managing all inspection operations at the Miami International 
Airport, Miami Seaport, Port Everglades, Fort Lauderdale 
International Airport, West Palm Beach, Fort Pierce and Key 
West as well.
    The Chairwoman now recognizes Mr. Winkowski for his 
testimony. We appreciate your coming, sir.

  STATEMENT OF THOMAS WINKOWSKI, ASSISTANT COMMISSIONER, U.S. 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Winkowski. Good morning, Chairwoman Miller, and Ranking 
Member Cuellar and Members of the subcommittee. I appreciate 
the opportunity to testify before your committee today and 
continue our on-going discussions on how we secure the border 
at our ports of entry.
    I will tell you that I am coming on my fourth-year 
anniversary as the Assistant Commissioner for Field Operations. 
This is the first time I can recall having a hearing 
specifically focusing in on the ports of entry. So I really 
welcome this opportunity to testify at the hearing. Without 
your full support and partnership, we would not have been able 
to accomplish all of the successes we have had to date.
    The Department of Homeland Security and Customs and Border 
Protection employ a risk-based layered approach that, through 
the help of this committee, has become a cornerstone of our 
operations at the ports of entry.
    Given my limited time, I want to take a few minutes to talk 
about some of the really good work that we have been able to 
accomplish. At the direction of Secretary Napolitano and 
Commissioner Bersin, CBP has re-engaged in out-bound operations 
over the past 2 years with much success: An increase in 
currency, weapons seized at the border going south into Mexico, 
100 percent rail inspection that Mr. Thompson mentioned. By the 
end of this year, we will have hand-held license-plate reader 
capability at all of our 111 out-bound lanes along the 
Southwest border.
    Furthermore, as we create new facilities, we are keenly 
aware of the need to ensure the capacity of out-bound 
inspections in our design as well as in our construction.
    Another important initiative has been the Alliance to 
Combat Transnational Threats, or ACTT, in Arizona. Since ACTT 
began on September 5, 2009, we have seen significant 
enforcement actions at Arizona ports of entry, more than $13 
million in out-bound currency seizures, over 129,000 pounds of 
marijuana, and 3,600 pounds of cocaine as examples.
    Our success can be measured in many ways. Raw numbers tell 
us something. But the smugglers' reactions help validate our 
activities. Since we have increased our efforts and continue to 
evolve our methods, the cartel has moved to more unique and 
deeper concealment methods. For example, concealing drugs in 
transmissions of vehicles and trucks and manifolds, cash in gas 
tanks, the use of buses to smuggle drugs and cash, drugs 
commingled with produce, as just some examples.
    Critically important to our mission and related to the 
violence seen on the Mexican side of the border is our effort 
to give our officers the training and resources they need to 
ensure the security of the ports. We have conducted 
infrastructure surveys to improve the physical security of the 
ports that we have spent over $3.2 million hardening our ports. 
We have deployed what we call tactical enforcement officers who 
are fully equipped with body armor and the long guns and all 
the other associated equipment. We continue to improve and 
enhance our special response team program.
    I also would like to mention the much-needed infrastructure 
projects we have taken and continue to pursue. Chairwoman, you 
mentioned this along with Mr. Cuellar. The Commissioner and I 
just had the opportunity to open up the new Peace Arch Port of 
Entry in Blaine, Washington. Clearly it is a state-of-the-art 
facility that showcases what an effective partnership we have 
between all the stakeholders: The trade community, the 
community at large, the general public, GSA, and what we can 
produce at CBP. Really, the port of entry in Blaine, as I 
mentioned, is state of the art; but it also is fully equipped 
with all that we need from a standpoint of our requirements 
with audit, video capabilities and primary and secondary as 
well as ample space to process individuals.
    Over the past year, we have opened two new ports of entry 
in Anzalduas and Donna. San Ysidro has begun a well-needed 
expansion and enhancement plan. I was just recently down there 
for the groundbreaking. We will see enhancements in San Luis, 
Arizona, as well.
    The fiscal year 2012 budget request contains money for 300 
CBPOs for new and existing infrastructure, and I look forward 
to working with this committee to ensure that we have the 
essential personnel resources going forward.
    These improvements not only bolster security but also 
enhance our ability to facilitate legitimate trade and travel. 
Our focus should be to consistently and constantly find new and 
innovative ways to reduce transaction costs. That comes through 
working with our partners and take our trusted traveler and 
trusted shipper programs to the next level.
    I thank you for the opportunity to testify and I look 
forward to answering your questions.
    [The statement of Mr. Winkowski follows:]
                 Prepared Statement of Thomas Winkowski
                             April 5, 2011
    Chairman Miller, Ranking Member Cuellar, Members of the 
subcommittee, it is a privilege and an honor to appear before you today 
to discuss the work of U.S. Customs and Border Protection (CBP), 
particularly the tremendous dedication of our men and women in the 
field, both at and between our ports of entry.
    My testimony today focuses on CBP's operational efforts that are 
leveraged to combat narcotics, weapons, and cash smuggling along our 
borders.
    I would like to begin by expressing my gratitude to Congress for 
its continued support of the mission and people of CBP. It is clear 
that Congress is committed to providing CBP with the resources we need 
to increase and maintain the security of our borders. We greatly 
appreciate your efforts and assistance, and I look forward to 
continuing to work with you on these issues in the future.
    The creation of CBP, which established a single, unified border 
agency for the United States, is a profound achievement, and our 
responsibilities are immense and challenging. CBP is responsible for 
protecting more than 3,900 miles of border with Canada and 1,900 miles 
of border with Mexico, and 2,600 miles of shoreline. In fiscal year 
2010, CBP officers at 331 ports of entry inspected 352 million 
travelers and more than 105.8 million cars, trucks, buses, trains, 
vessels, and aircraft. Each day, CBP officers process nearly 1 million 
travelers entering the United States at our air, land, and sea ports of 
entry and inspect more than 47,000 truck, rail, and sea containers.
    In fiscal year 2010, CBP seized 4.1 million pounds of narcotics, 
including more than 870,000 pounds seized at the ports of entry, 2.4 
million pounds seized between the ports of entry, and 831,000 pounds 
seized, assisted by CBP Air and Marine. These numbers demonstrate the 
effectiveness of our layered approach to security. Violent crime in 
border communities has remained flat or fallen in the past decade, 
according to the Federal Bureau of Investigation's (FBI) Uniform Crime 
Report, and some of the safest communities in America are at the 
border. In fact, violent crimes in Southwest border counties overall 
have dropped by more than 30 percent, and are currently among the 
lowest in the nation per capita, even as drug-related violence has 
significantly increased in Mexico.
    Working with our partners, our strategy is to secure our Nation's 
borders by employing and enhancing our layers of defense throughout the 
entire supply chain (for goods) and transit sequence (for people)--
starting from their points of origin, transit to the United States, 
arrival and entry at our borders, routes of egress, and ultimately to 
final destination in the United States. This strategy relies upon 
increased intelligence and risk-management strategies regarding the 
movement and flow of both travelers and trade. We accomplish our 
mission of expediting legal trade and travel by separating the 
``knowns'' from the ``unknowns''. This risk segmentation allows us to 
enhance security by focusing more attention on stopping illegitimate 
trade, while at the same time facilitating legitimate travel and 
commerce. Security and prosperity are mutually reinforcing, and the 
United States and Mexico are closely linked by a common interest in 
robust security and growing economies. DHS is committed to continuing 
to work with Mexico to foster a safe and secure border zone, while 
facilitating the legal trade and travel that helps our shared border 
region prosper.
    Thanks to the continued support of Congress, CBP now has 293 large-
scale Non-Intrusive Inspection (NII) systems deployed to our ports of 
entry. Of the 293 NII systems deployed, 53 are deployed on the Northern 
border and 145 are deployed on the Southwest border. Additionally, CBP 
has deployed 60 backscatter X-ray vans to Southwest border land ports 
of entry. To date, CBP has used the deployed systems to conduct over 32 
million examinations resulting in over 7,600 narcotic seizures with a 
total weight of 2.4 million pounds of narcotics, and the seizure of 
over $19.2 million in undeclared currency. Used in combination with our 
layered enforcement strategy, these tools provide CBP with a 
significant capability to detect contraband, including illicit nuclear 
or radiological materials. The deployment of NII technologies has also 
enabled our staff to efficiently process a significant volume of 
passengers and trade.
    NII technologies are the only effective means of screening the 
large volume of rail traffic entering the United States from Mexico. 
CBP currently has rail imaging systems deployed to all 3 eight 
Southwest border commercial rail crossings. These systems currently 
provide CBP with the capability to image and scan 100 percent of all 
commercial rail traffic arriving in the United States from Mexico. The 
rail NII imaging technology is bi-directional which provides CBP with 
the added capability to image southbound trains. In March 2009, CBP 
began conducting 100 percent outbound screening of rail traffic 
departing the United States for Mexico for the presence of contraband, 
such as explosives, weapons, and currency.
                      southwest border operations
    Over the past 2 years, DHS has dedicated historic levels of 
personnel, technology, and resources to the Southwest border. In March 
2009, DHS launched the Southwest Border Initiative to bring 
unprecedented focus and intensity to Southwest border security, coupled 
with a smart and effective approach to enforcing immigration laws in 
the interior of our country. Under this initiative we increased the 
size of the Border Patrol to more than 20,700 agents today, which is 
more than double the size it was in 2004; and quintupled deployments of 
Border Liaison Officers to work with their Mexican counterparts. With 
the aid of the $600 million supplemental appropriation passed by 
Congress in the summer of 2010, we are continuing to add technology, 
manpower, and infrastructure to the border. This includes the addition 
of 1,000 new Border Patrol agents and 250 new CBP officers; improving 
our tactical communications systems; adding two new forward operating 
bases to improve coordination of border security activities; and adding 
additional CBP unmanned aircraft systems.
    To continue to secure the Southwest Border, CBP must continue to 
increase the probability of detection and apprehension of people 
attempting to enter the United States illegally or engaging in cross-
border crime. Doing so requires integrated planning and execution of 
operations across CBP, as well as seamless partnerships with other 
government agencies and sustained collaboration with Mexico. In recent 
months, we have taken additional steps to bring greater unity to our 
enforcement efforts, expand collaboration with other agencies, and 
improve response times. In February, we announced the Arizona Joint 
Field Command (JFC)--an organizational realignment that brings together 
Border Patrol, Air and Marine, and Field Operations under a unified 
command structure to integrate CBP's border security, commercial 
enforcement, and trade facilitation missions to more effectively meet 
the unique challenges faced in the Arizona area of operations.
    In March 2009, under the Southwest Border Initiative, CBP created 
the Outbound Programs Division within its Office of Field Operations. 
This division is focused on stemming the flow of firearms, currency, 
stolen vehicles, and fugitives out of the United States. CBP also 
increased its use of ``pulse and surge'' strategies for outbound 
operations on the Southwest border. In fiscal year 2011, we have 
continued to strengthen the use of these operations along the Southwest 
border and to enhance our cooperative efforts with Federal, State, 
local, and Tribal law enforcement agencies. These increased outbound 
security operations have yielded significant results on both borders.
    Our partnership with Mexico has been critical to our efforts to 
secure the Southwest border, and we will continue to expand this 
collaboration in the coming year. CBP is continuing to assess and 
refine its outbound enforcement strategy to include coordinated efforts 
with U.S. law enforcement agencies and the Government of Mexico to 
maximize southbound enforcement. These activities serve to enforce U.S. 
export laws while depriving criminal organizations in Mexico of the 
illicit currency and firearms that fuel their illegal activities. In 
fiscal year 2010, CBP and Mexican Customs participated in 22 joint 
operations along the Southwest border that resulted in the seizure of 
over $113,000 in currency, 23.75 kilograms of narcotics and the 
recovery of five stolen vehicles.
    In 2003, CBP opened an attache office at the U.S. Embassy in Mexico 
City to oversee CBP operations in Mexico, including border operational 
support at and between the ports of entry, bilateral coordination to 
secure the shared border, and training for Mexican government agencies. 
In addition to supporting our Mexican counterparts, the attache's 
office provides subject matter expertise to the Ambassador and U.S. 
interagency groups within the U.S. Embassy in support of the U.S. 
Government's trade, travel, and security agendas.
    As we have enhanced our collaboration with our neighbors to the 
south, CBP also has continued to build upon our partnerships within the 
United States. In September 2009, we initiated the Operation Alliance 
to Combat Transnational Threats (ACTT)--a collaborative enforcement 
effort to leverage the capabilities and resources of more than 60 
Federal, State, local, and Tribal agencies in Arizona and from the 
Government of Mexico to combat individuals and criminal organizations 
that pose a threat to communities on both sides of the border. While 
ACTT's initial focus is on Arizona, as it continues to evolve, focused 
operations will expand to other operational corridors.
    CBP continues to work with its partners in the Drug Enforcement 
Administration (DEA) and the Southwest Border High Intensity Drug 
Trafficking Area program to expand the National License Plate Reader 
(LPR) initiative to exploit intelligence on drug traffickers and drug 
trafficking organizations. The LPR initiative utilizes established 
locations to gather information regarding travel patterns and border 
nexus on drug traffickers for intelligence-driven operations and 
interdictions. We have also established positions at the El Paso 
Intelligence Center (EPIC), the Organized Crime Drug Enforcement Task 
Force Fusion Center, and the DEA Special Operations Division and 
continue to partner with fusion centers in States along the Southwest 
border and participate in other multi-agency task forces such as the 
ICE Border Enforcement Security Teams and Border Intelligence Centers 
targeting drugs, weapons, and currency across the Southwest border.
    These partnerships enhance interaction with the intelligence 
community and law enforcement agencies to more effectively facilitate 
the collection, analysis, and dissemination of actionable intelligence 
in support of drug trafficking and money laundering investigations 
along the Southwest border.
    CBP's fiscal year 2012 budget request continues these efforts by 
supporting 21,186 CBP officers who work around the clock with State, 
local, Federal, and Tribal law enforcement in targeting illicit 
networks trafficking in people, drugs, illegal weapons and money. 
Included in the request is funding to support the deployment of 300 new 
CBP officers and additional canine assets to port of entry operations 
that have recently come on-line. The additional CBP officers and 
canines will increase our enforcement capabilities to prevent the entry 
of unlawful people and contraband while enhancing our ability to 
process legitimate travelers and cargo. This reflects the largest 
deployment of law enforcement officers to the front line in the 
agency's history.
                             infrastructure
    CBP has long recognized the need to maintain facilities and 
infrastructure that effectively support our mission requirements. 
Modern facilities must address our constantly evolving border 
functions, increasing traffic volumes and staffing levels, and new and 
updated technologies and equipment. To that end, CBP has implemented a 
facility investment planning process, and capital improvement plan for 
land border ports of entry. This process ensures that facility and real 
property funding is allocated in a systematic and objective manner, and 
is prioritized by mission-critical needs.
    While CBP operates 167 land border facilities along the Northern 
and Southwest borders, CBP owns only 27 percent of these facilities. 
The U.S. General Services Administration (GSA) owns 58 percent, and 
leases the remaining 14 percent from private, State, or municipal 
entities. The average age of our facilities is 42 years old, which when 
coupled with the rapid and continuing evolution of CBP's mission, has 
left these vital assets in need of modernization and expansion so that 
they can continue to support mission-critical operations. The 
heightened responsibilities of the post-9/11 world are far beyond the 
legacy missions that the ports were originally designed to support and 
the capacity that they were designed to accommodate. For example, the 
majority of these facilities were not built to incorporate all of the 
enhanced security features that are now present at our ports of entry, 
including Non-Intrusive Inspection technology (Radiation Portal 
Monitors, Vehicle and Cargo Inspection System, X-rays) and License 
Plate Readers.
    Through the American Recovery and Reinvestment Act (ARRA), CBP was 
provided with $420 million for the modernization of CBP-owned land 
ports of entry, and GSA was provided with $300 million for the 
modernization of GSA-owned land ports of entry. Through the use of 
innovative and cost-efficient construction management practices, CBP 
was able to use ARRA funds to modernize 39 CBP-owned land border 
crossings.
    GSA received $300 million under ARRA for the modernization of GSA-
owned land ports of entry. The original GSA spend plan was for seven 
projects, four on the U.S.-Canada border and three on the U.S.-Mexico 
border. Due to cost savings, CBP and GSA also used funds to support 
smaller projects at four additional land ports. With the aid of $200 
million in ARRA funds, the Mariposa Port of Entry near Nogales, 
Arizona, is currently undergoing renovations to expand capacity and 
reduce wait times. These improvements will assist our officers in 
focusing their efforts on finding illegitimate trade and travelers. The 
Otay Mesa Port of Entry near San Diego is also undergoing a $75 million 
upgrade to better facilitate commercial traffic. These are just a few 
of the many port projects designed to enhance security and support and 
expand trade and commerce along the border.
                         staffing and training
    We have no greater asset than our human resources and we are 
committed to continuing to recruit, hire, develop, and sustain a 
premier officer corps. To achieve this goal we are currently refining 
the recruitment and hiring processes, improving our retention 
capabilities, and enhancing our deployment and staffing processes.
    We have developed a Workload Staffing Model (WSM) to better align 
resource needs and requests against levels of threat, vulnerabilities, 
and workload. By using the model we can adjust optimal staffing levels 
to changes in workload, processing times, new technologies and 
processes, mandated requirements, and threats. The staffing model alone 
does not determine how our officers are allocated; it is merely a tool 
to assist us in determining the optimum allocation of officers at each 
of our land, sea, and air ports.
    CBP has also implemented numerous programs, initiatives, and 
training to build our officer corps and enable officers to more 
effectively respond to threats of terrorism, better utilize 
intelligence information, and continue to develop skills, streamline 
processes, and enhance inspection operations.
    We have developed and implemented a comprehensive training 
curriculum for CBP Officers and CBP Agriculture Specialists. This 
training curriculum includes basic academy training, as well as 
comprehensive, advanced, on-the-job and cross-training courses. CBP 
continually strives to provide our frontline officers with recurrent 
and additional training to help them better perform their jobs. For 
example, CBP has extensive training in place for fraudulent document 
identification--both in the CBP officer academy and embedded in 40 
additional courses.
    To make the best use of our training time and resources, we train 
our officers when they need to be trained, and for the functions they 
are performing. This means that not every officer completes every 
cross-training module, but rather each officer receives the training 
needed to do the job he or she is currently performing. CBP has 
identified Field Training Officers to ensure that CBP Officers are 
receiving the training they need to do their jobs, and that internal 
measures are in place to monitor and assess training needs and 
accomplishments Nation-wide. CBP is constantly reviewing and revising 
its training, in accordance with the ever-changing border enforcement 
environment.
    Recognizing the complexity of our mission and the broad border 
authorities of our agency, we have established specialty functions and 
teams that receive additional focused advanced training. For example, 
counterterrorism response teams were created for deployment within 
secondary inspection areas. These teams are provided with a new and 
intense training curriculum that teaches our officers how to detect 
deception and elicit information. We have also established targeting 
and analysis units, roving teams, and prosecution units. Our 
enforcement officers receive additional advanced training to develop 
expertise in the questioning of individuals suspected of being involved 
with organized smuggling of aliens or drugs, terrorism, and document 
fraud.
                               conclusion
    Chairman Miller, Ranking Member Cuellar, and Members of the 
subcommittee, thank you again for this opportunity to testify about the 
work of U.S. Customs and Border Protection. CBP is committed to 
continuing to secure our Nation's borders and safeguard our way of 
life. Your continued support of CBP has led to significant improvements 
in the security of our borders, and made our Nation safer. I will be 
glad to answer any questions you may have.

    Mrs. Miller. Thank you very, very much. I appreciate that 
testimony. As my Ranking Member said, sometimes we don't pay 
enough attention to our men in blue, so I am appreciative of 
you coming.
    As we said, this committee's focus as we looked at 
operational control of the border, as we have looked at some on 
the follow-ons, the SBInet and technology and various things 
that we might be able to utilize in between the ports of entry, 
I think we do need to look more specifically at the POEs and 
what is happening there. Again, what is the proper mix of 
manpower and technology, dogs, et cetera? Those will be really 
the impetus for my questions.
    I guess I would start certainly with the manpower question. 
Just trying to understand your assumptions, your matrix, if you 
will, for manpower decisions. It has been explained to me that 
you are in the middle of the crafting of a new staffing model. 
But could you tell the committee to the best of your knowledge 
what some of the assumptions are, crafting that, about what 
your manpower needs actually are, and when we would be looking 
for some of that information.
    Mr. Winkowski. Yeah. I don't have a number for you, but I 
can tell you that we have taken a whole new look at our 
workforce allocation model. The old model that we had that Mr. 
Cuellar referred to, in my view just didn't address really the 
complexities of field operations. As I mentioned in my 
testimony, we have re-engaged in the area of out-bound for 
example. The old model that we had did not have that particular 
criteria and that particular line item in there.
    So as we continue to move forward with new infrastructure 
that does take into effect our out-bound needs--so, for 
example, in Anzalduas and Donna and even at Peace Arch, we have 
a section of that port of entry, those ports of entry, that 
have enough space and the technology needs for our officers to 
do effective out-bound inspections. So the staffing model 
didn't really contain that. So I took a step back and decided 
to really redesign the staffing model.
    The other thing that we need in that staffing model was the 
ability to do a plug and play, if you will, from the standpoint 
of airports, for example. I know we are talking about the 
Southwest border and the Northern border, but we have 95 
million passengers that come in every year at our international 
airports. To be able to have a model that you could work with 
the airlines on from the standpoint of their business model, 
when they bring an international flight in, getting that 
individual processed through Customs and Border Protection and 
onto a connecting airline, how many booths you would need, how 
many people you would need from a standpoint of about a 30-
minute turnaround or a 45-minute turnaround. The previous model 
didn't have that.
    So where we are, we have a good solid draft. We have 
briefed the deputy commissioner, as well as Commissioner 
Bersin. Commissioner Bersin had a series of questions and we 
are back looking at that model. We will be going forward 
briefing him and then up to the Department and OMB. So I hope 
at some point we can at least sit down with the committee to 
talk about the methodology behind the staffing model.
    Mrs. Miller. I appreciate that, because as my Ranking 
Member has talked about, the volume that is going through his 
border and--we can all cite various volumes that are happening 
at some of the POEs, et cetera. But you have different 
dynamics, right? When you are looking at a manpower matrix, it 
is not just volume. It is the type of threats--I mean, you do 
have different dynamics in the types of threats just as you 
mentioned at the air ports of entry.
    Mr. Winkowski. Absolutely. So that model would take into 
consideration, for example, the threat. Once you make a 
narcotics seizure, you lose a whole host of officers to process 
that particular seizure. You have got to make sure that you 
have enough resources to continue to staff those booths so we 
can facilitate legitimate trade and travel as well. So that 
model takes all of that into consideration.
    Mrs. Miller. We talked about manpower, and I am sure some 
other Members of the committee might have some questions about 
canines. I have to ask that because I am sort of on a mission 
as well to understand why in the Northern border we essentially 
don't have canines. We have maybe 1 or 2 dogs, and yet you have 
got huge amounts at the Southern border. Again, I am not 
minimizing that. I am just trying to understand how do you get 
to a matrix where you don't really use dogs in some areas and 
yet you use them very heavily in others, and what is the plan 
for the agency as far as balancing that, if you have no plan to 
balance it? Just explain to me what your thought process is on 
all of that.
    Mr. Winkowski. Yeah. As was mentioned, the canines are a 
wonderful tool for us. They have been with us for many, many 
years. We are big canine program supporters. But when you look 
at the result side of it when you get down to pure numbers, say 
the Northern border versus the Southern border, the results are 
tremendous down in the Southwest border. So the decisions you 
have to make are, well, do I take some of these existing 
resources that I have up in the Northern borders--not only the 
Northern border, but it is also airports--and move them, move 
some of those down to the Southwest border where our cost-
effective ratio is so much higher. I have moved canines, 
particularly from airport environments where they just don't 
produce, and have moved them down to the Southwest border.
    I think the other thing that we have to keep in mind is one 
of the--I think the many good things about creating the 
Department of Homeland Security and our Customs and Border 
Protection, we have got one office now, one Commission that 
owns the entire border at the ports of entry, and between the 
ports of entry, as well as in the air and the water. The Border 
Control has its canine resources. What we are doing is we want 
to make those dogs fungible. The Customs Service had certain 
standards and requirements and response protocols and Border 
Control had their response protocols. They didn't all match up. 
You need a different dog in a pedestrian environment versus a 
cargo environment.
    What we are doing is we are training all of those dogs so 
those dogs are fungible from the standpoint that if you needed 
a canine from field operations at a checkpoint, that dog is 
trained for checkpoints as well as points of entry. Border 
Control, the same thing. If we need a dog down at the ports of 
entry, we can call Border Control and that dog is trained for 
ports-of-entry response protocols; because when you look at the 
numbers Nation-wide, we have in the area between us and Border 
Control probably in the area of about 1,400-1,500 dogs. I think 
in field operations, we have 606, if I recall correctly. The 
bulk of those canines are down in the Southwest border.
    Mrs. Miller. Thank you. I recognize the Ranking Member.
    Mr. Cuellar. Thank you again, Madam Chairwoman.
    Mr. Winkowski, thank you again. I think you are doing a 
great job and I appreciate the work that you are doing.
    I have a series of questions. South-bound inspections, I 
think is something Michael McCaul and I have been working on in 
Texas. The State legislature is looking at passing some law to 
allow more south-bound. I told some of my former colleagues, 
look, it really doesn't matter what you all do, because it 
still depends on CBP to allow you to go in.
    I am a big believer that the more you can include the local 
and State folks to do those south-bound, you can catch more of 
the guns going down. Cash also. Cash, if you do the asset 
sharing with the locals, for local police department or 
sheriffs, that means a lot of money to them. I know that I have 
asked some of the folks down in my district to do a little bit 
more and they keep saying there are footprints.
    We certainly don't want to impede the movement of vehicles 
and create long lines going down. But why is it that we just 
can't implement a policy to allow the border sheriffs, the 
border police departments to work with you? Because if they are 
willing to do it like in the city of Pharr where they set up a 
low point, why not allow them? Because I know we are always 
saying we don't have enough personnel. But if they are willing 
to do that and work with you all, it is only common sense to 
allow them to do this.
    Mr. Winkowski. I totally agree. I can tell you that along 
the Southwest border we have a great partnership with the State 
and locals. I was down in I believe it was Pharr just not too 
long ago. I met the sheriff. They have a trailer there right at 
the port of entry.
    Mr. Cuellar. A FEMA trailer that we got.
    Mr. Winkowski. That is right. That is correct. They work on 
a regularly occurring basis. As you know, Pharr and Hildago 
have been very, very successful with their out-bound 
operations. The sheriff has made--I think it is the chief of 
police actually--made it very, very clear that they do get 
money from asset sharing, and also with the different grants 
that are out there able to pay for their overtime. So I believe 
we have a very, very robust fingerprint on the Southwest border 
with the State and locals.
    Mr. Cuellar. Pharr is in my district. I am very familiar 
with that. Could you instruct your folks at the Southwest--and 
I assume in the Northwest--to actually not come up with some 
excuses, because I know there are some areas where they are 
doing that. But if the locals are willing to put the time into 
it, that would help I think all sides; Mexico, for the guns to 
go in; cash so we can stop the money from going to the drug 
cartel. I would ask you to please send that instruction down 
and be a little more aggressive on that.
    The other thing that I have also, a matter of efficiency. 
The last time we had Chief Fisher here, I asked him how many 
Border Control he had at the headquarters. I think he had about 
230. His response was we need all 230 there at the 
headquarters.
    It is the old thing about school districts. You get 
teachers away, put them in administrative and--I know you need 
some of those down at headquarters, but I think you can 
contract some of those services out and put those people out in 
the border.
    My question to you: How many CBP officers do you have at 
headquarters?
    Mr. Winkowski. The way we count it, because we count the 
National targeting centers in our headquarters numbers, I think 
you are----
    Mr. Cuellar. Let us get that sector away. Do you know how 
many CBP officers you have at headquarters doing administrative 
work that could be down in the border?
    Mr. Winkowski. A combination of CBPOs and agriculture 
specialists, I would say it is probably in the area that is 
doing the staff work side of it, not the targeting operational 
side of it, it is probably in the area of 150 to 175.
    Mr. Cuellar. Okay. I would ask you to do the same thing as 
we asked Chief Fisher, is to evaluate to see if he can send any 
of those to the Northern or the Southern border and allow some 
of the contracting--have some folks--I can understand certain 
areas you do need CBP. I understand that. But I would ask you 
to look at that.
    The other thing, I would ask you also--and if you can do 
that in the next 10 days from today. The other thing is, it has 
to do with technology. I was approached by the former Governor 
of the State of Texas, Mark White. He had some technology that 
they use in Europe at the checkpoints. It is a very simple 
technology that when a trailer comes in, that they just check 
to see if there is a heartbeat. That would tell you 
automatically if there is somebody that is being smuggled in.
    He went through the process for years and he couldn't break 
the bureaucracy. He asked me to help him; and guess what? I 
couldn't break the bureaucracy also. I mean, if there is some 
technology out there that is proven somewhere else at another 
place, let us say Europe, why can't we implement some of that 
technology that would help us stop some of the smuggling coming 
in?
    Mr. Winkowski. Well, we are always in search. This 
committee has been very, very supportive of our technology 
needs. Just the Recovery Act alone was $100 million in NII. I 
am always open for new technology. New technology is one of the 
cornerstones of what we do at the ports of entry. Consider the 
bureaucracy broke, I would be more than happy to meet with that 
individual to talk through the product that he has.
    Mr. Cuellar. Yeah. I know my time is up, but I would just 
ask you--and I am not pushing this technology, I am just saying 
technology that works out there. I would be happy to set that 
up. But the problem is they will set up a meeting, and the 
bureaucracy takes over and nothing happens, I still say if it 
works somewhere else, why not use it here in the United States?
    Thank you again for the good work that you have been doing. 
Thank you, Madam Chairwoman.
    Mrs. Miller. The Chairwoman recognizes the gentleman from 
Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Madam Chairwoman. Thank you, 
Commissioner, for being here again. Do you have enough 
personnel?
    Mr. Winkowski. Well, the bill for fiscal year 2012 calls 
for 300 additional CBPOs, along with 42 additional targeters 
for our--for our targeting center.
    Mr. Rogers. I take it that means no?
    Mr. Winkowski. Well, I support the President's bill. I 
mean, from a standpoint of if additional resources were given, 
we would have work for them to do.
    Mr. Rogers. My concern is you are down 2,000 officers since 
2009 and 300 sounds like a really light lift, given that you 
are down 2,000; and you just talked about your reconfiguration 
of your staffing and the new missions that you are trying to 
achieve. The problem I have got in this committee as well as 
the Armed Services Committee, is we count on professionals like 
you to give us your unvarnished opinion. I recognize that you 
have got orders from Commissioner Bersin, as well as the 
President, that you don't deviate from. But we can't help you 
if you don't tell us what you need. So it just seems to me that 
while you like to have the 300 and you are saluting and saying, 
yes, sir, I am for that, what we need to know is do you need 
more than that?
    Mr. Winkowski. I think certainly, as I said, if we were 
given additional resources, we would have plenty of work for 
them to do. I think along those lines, though, Congressman 
Rogers, is we have got to look at why did the numbers come 
down. One of the challenges that we have in field operations is 
that about 37 percent of our staff are funded by user fees. So 
when the economy is robust and people are traveling and cargo 
is crossing and they are paying user fees, it gives us that 
ability to go and hire additional officers. The last couple of 
years, as you well know, we, this country, was going through a 
very tough economic time, and passenger counts had dropped, 
which means revenues have dropped from the standpoint of user 
fees. So, for example----
    Mr. Rogers. You are talking about budgetary matters and the 
fact is this is the Homeland Security Committee. Our 
responsibility is to make sure you have what you need to 
provide secure ports of entry. Frankly, it shouldn't matter to 
you whether our revenues are up or down. What we want to know 
is from you as a professional, what do you need to secure the 
ports of entry? It seems to me your personnel down there--it 
may be because we are not paying them enough, we are having a 
hard time recruiting, retention, whatever. That is what I am 
getting at.
    Mr. Winkowski. I don't mean to misdirect the question, but 
we are tied to this user fee. So my point is, look at--it 
should be appropriated, rather than a user fee.
    Mr. Rogers. That is an excellent point.
    Second question. Do you have enough canines? You said you 
have 606. Obviously you have one on the Northern border. It 
seems to me the answer is no.
    Mr. Winkowski. I think the next step with our staffing 
model is going to be directed at our canine program.
    Mr. Rogers. Where do you produce your canines? Front Royal?
    Mr. Winkowski. Front Royal.
    Mr. Rogers. And El Paso?
    Mr. Winkowski [continuing]. And El Paso for Border Control. 
What we need to make sure that we are doing is, as I mentioned 
earlier, is that we are effectively utilizing the existing 
canines that we have on board.
    Mr. Rogers. But you don't have enough?
    Mr. Winkowski. I think it is too early to tell because----
    Mr. Rogers. You only have one on the Northern border. You 
can't have enough.
    Mr. Winkowski. The question becomes from a standpoint of 
effectiveness. I could go and put----
    Mr. Rogers. I recognize that the only way to get 606, you 
have got to allocate them where they are most effective. But 
you are putting all 605 of them on the Southwest border and 
only one on the Northwest border. So obviously you don't have 
enough.
    According to the 2010 Congressional Justification to 
Congress from your Department, you are apprehending only 30 
percent of the violators on the land POEs. We need to get you 
some more assets. Basically I am here to help you, but you have 
got to help me by saying, yeah, I need more. That is all I am 
looking for, and I don't want to put you on the spot. I know 
you have got folks above you trying to keep you in line. I am 
sure there is somebody up in your legislative liaison office 
back there with a gun pointed at you right now.
    Last question. You talked about the state-of-the-art POE, 
ports of entry, the new ones like Blaine. Can you describe for 
me the characteristics of a state-of-the-art facility as 
opposed to one of your antiquated facilities?
    Mr. Winkowski. Yeah. I think No. 1, it has enough lanes to 
process passengers. It reduces these wait times to an absolute 
minimum. It is fully equipped with electronic signage so you 
can direct traffic into lanes from a standpoint of--with the 
complying documents only, to Trusted Traveler. It has got 
complete audio/video capability in the booths as well as in 
secondary. It is hardened from the standpoint of the necessary 
barriers that we need. It has a very, very robust out-bound 
section that our officers can use.
    Mr. Rogers. Excellent. Thank you very much.
    Mrs. Miller. The Chairwoman recognizes Mr. Clarke from 
Michigan.
    Mr. Clarke. Thank you, Chairwoman.
    First of all, Commissioner Winkowski, I want to commend 
your service with U.S. Customs Service working up through the 
ranks. That is very impressive. I want to commend your mission 
to help prevent terrorists and weapons and other contraband 
from coming through our ports of entry.
    I represent the Detroit border sector which includes the 
Quincy Ambassador Bridge. There is a lot of long wait times 
there and the wait times really add to the pollution and toxins 
that pollute those neighborhoods that I represent.
    Just your opinion, how does CBP balance its mission on 
stopping these terrorist threats with facilitating cross-border 
commerce? Is there a way that you see that we can reduce those 
wait times without compromising security?
    Mr. Winkowski. Yeah. Really that is really the challenge 
that we have in field operations. If you come between the ports 
of entry, you are a violator. I don't care if you are a U.S. 
citizen or not a U.S. citizen. If you are coming through a port 
of entry, we process legitimate trade and travel there, as well 
as prevent bad people and bad things from coming into the 
country. So our officers in blue are always working with that 
fine balance.
    What we have done is we have come up with a number of 
programs that segregate risk. For example, the more that we 
know about a particular traveler, the more that we know about a 
particular company and shipment, the better judgment that we 
can make from a standpoint of determining whether or not that 
particular shipment, that particular individual, needs to be 
inspected. Thus we created C-TPAT, Customs Trade Partnership 
Against Terrorism; fast lanes that have fully vetted truckers 
on the passenger side as our NEXUS program of which up on the 
Northern border we have about 400-500,000 members. But we need 
to make sure that our infrastructure, as you go forward here 
with new infrastructure that they are talking about here, 
addresses that kind of risk segmentation.
    So the more I know about that particular company, the more 
I know about that particular individual, the more--hey, I can 
blow away from the needle. That is how we do it. That is a big 
piece of how we do it.
    Mr. Clarke. Just one follow-up on the Ranking Vice Chair's 
question regarding staffing. Does your--and I am assuming lack 
of CBP officers is an assumption that you may not have enough 
that you need. How does that affect the burden that our local 
first responders have to bear?
    Mr. Winkowski. From the standpoint of emergency vehicles 
coming in?
    Mr. Clarke. Just in terms of security.
    Mr. Winkowski. Well, again, you know we have enjoyed a 
plus-up in staffing. When you look at the Northern border and 
the Southern border, up in the Northern border from fiscal year 
2006 to fiscal year 2011 here, up to March 12 of 2011, we have 
had a 15 percent increase in CBPO, which you know in a time of 
shrinking budgets I am very, very grateful for that. We also 
have some flexibility with overtime and some of the other 
compensations that we can give our officers.
    Mr. Clarke. Thank you, Commissioner. I yield back.
    Mrs. Miller. I thank the gentleman. The Chairwoman now 
recognizes the gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Madam Chairwoman. Thank you 
commissioner for being here today. I want to follow up on some 
points that my colleague from Texas, Mr. Cuellar, made on the 
south-bound interdiction efforts. The figures I have, there is 
somewhere between $18- to $39 billion that flow from the United 
States back into Mexico, and of course that is speculative but 
that is the estimate, not to mention the guns and I know we 
have the best teams down there. I have seen them, very 
impressive. But really two questions. I mean, the other 
information I have is that the Department from March 2009 
through February 2011, the Department seized only $67 million, 
which is less than 1 percent of all this illicit smuggling. It 
seems to me that we could do a better job and I think that the 
beauty of this program, if we can enhance it as we are 
proposing out of this committee, is that it could be a pay-for 
for a lot of our border security operations.
    So my first question is, where we do seize the assets, 
where does that money go?
    Mr. Winkowski. That money goes into the Forfeiture Fund, 
and that money is used for reimburse State and locals. 
Oftentime State and locals are working with us; they get a 
piece of that. Also we were able to get, I believe it was $10 
million, out of the Forfeiture Fund for canopies for our south-
bound operations, those locations that don't have that outbound 
footprint.
    Mr. McCaul. My time is limited. So when the forfeiture 
money comes to Washington, the Secretary controls that. Is that 
correct?
    Mr. Winkowski. It is actually controlled out of the 
Treasury Department.
    Mr. McCaul. Okay, and who determines where that money goes?
    Mr. Winkowski. Treasury has a voice in it and the 
Department.
    Mr. McCaul. It seems to me that all the money we are 
seizing down there ought to go back towards our border security 
operations. It is my understanding that does not currently 
happen. I think we need to fix that.
    The second thing is if we are only getting less than 1 
percent--and Mr. Rogers alluded to this as well and you may be 
handcuffed to answer the question--but what can we do to 
enhance the best teams and the operations on the south-bound 
interdiction? You know, what more resources do you need down 
there?
    Mr. Winkowski. Well, I think from the standpoint of south-
bound, the technology piece is a big piece that is needed. We 
have 111 south-bound lanes going into Mexico. I believe less 
than half are covered by old license plate technology. We are 
in the process of deploying, as I said in my testimony here, 
handheld--standing up with handheld license plate readers which 
I think are very, very important because that enables us to 
trigger our systems. We have also employed our officers with 
handheld ATS mobile systems which enables them to be out there 
in the lane accruing names and running licenses. So we are 
beginning to deploy that technology.
    I think the other thing you have to keep in mind with that 
number, and I have seen that number as well, you have got wire 
transfers, you have got a whole host of ways that money is 
leaving the United States, and I think we also have to keep in 
mind tunnels. You know, we have seen an upshot in the number of 
tunnels. I think last year we found 12. This year we are 
already up to 11. I mean, that tells me a story that it is hard 
to get between the ports of entry and it is hard to get through 
the ports of entry, so they are going under us and, looking at 
it from a money standpoint, leaving through the tunnels as 
well. But I will say that the out-bound area, while we have 
always been engaged in out-bound, certainly the last few years 
we have really tripled our efforts and as part of that 
footprint that we have got to make sure it is with the ports of 
entry and we have got adequate----
    Mr. McCaul. I think as has been mentioned before by the 
Chairwoman and Mr. Rogers, I have seen the canines down there 
running around those cars, and I hope that happens when we are 
not there as well. I am sure it does. But they are impressive. 
I mean they can sniff the stuff out and so, you know, I look 
forward to working with you and my time is about ready to 
expire. But I would like to work with you and the Department in 
a bipartisan way to enhance this effort because I do think the 
money confiscated could be directed back towards your 
operations and make it safer.
    Mr. Winkowski. Thank you.
    Mr. McCaul. Appreciate it.
    Mrs. Miller. The Chairwoman recognizes the gentleman from 
Arizona, Mr. Quayle.
    Mr. Quayle. Thank you, Madam Chairwoman, and thank you for 
holding this very important hearing. Thank you for coming, Mr. 
Commissioner.
    I want to first off commend the men and women of CBP. I was 
recently along with the other people of the Arizona delegation. 
We went down to the various ports of entry in the southern part 
of Arizona and the Yuma sector and the Tucson sector, and they 
are top-notch and very professional people and we enjoyed our 
time with them.
    One of the areas that has really struck me was when we were 
in Douglas and it really showed that the violence and the 
amount of drugs that are coming across the borders really do 
affect our ports of entry because we got there and about an 
hour before the CBP actually pulled over a car that was driven 
by a young woman with her two young children in the car, and 
the dogs came out and they got about 200 pounds of marijuana 
right before we were there. We also were able to watch a video 
that the CBP put forth. It was on their surveillance cameras 
because in Douglas, as you know, we are right there next to the 
Mexican side and there was an incident about a few weeks ago 
where a few fake police cruisers on the Mexican side of the 
border went right past the port of entry, went to a restaurant, 
unloaded three hundred rounds of ammunition, killing between 
three and five and injuring about 20 people, depending on the 
reports.
    So the violence that you guys have to deal with in terms of 
the proximity continues down there as the drug cartels up their 
violent regime.
    But one of the things I was going to ask about, and we are 
talking a lot about the interdiction going south-bound, which I 
saw first-hand and it is actually great to see how much cash 
and weapons that you have been able to stop, but what sort of 
help has the Mexican authorities been giving you in south-bound 
interdiction and also, because you just mentioned it, with 
regard to the tunnels because their involvement is seeing where 
it starts on the Southern side is going to be so important 
until we can actually have the technological advances to be 
able to see those tunnels through the ground because in the 
Yuma sector, which has been fairly secure, they just found a 
tunnel a little while ago that was 40 feet deep underneath the 
fencing.
    So if you could talk to me about how the Mexican 
authorities are actually working with you on that.
    Mr. Winkowski. Well, we have a very, very strong 
relationship with the Mexican government on the border. Matter 
of fact, about a year ago we established binational port 
security committee meetings that we meet every month with the 
Mexicans. We were doing that before-hand but it wasn't as 
structured and Commissioner Burson wanted to bring some 
structure to that. So we have done that.
    We run joint operations with the Mexican government. So we 
are doing south-bound operations. They are doing north-bound 
operations. So we have got this coordination piece, and I can 
tell you in the 4 years that I have been in this job as the 
Assistant Commissioner, the relationship on the communication 
with our friends in Mexico has grown tremendously. We are very 
good partners with them. We work very, very hard with them. We 
meet with them on a regular and recurring basis at their ports 
of entry. They are automating their ports of entry with license 
plate readers. We have done a lot of training. We have sent 
their officers to our training. We have worked on their 
curriculum.
    So the relationship is a very, very healthy and robust 
relationship.
    Mr. Quayle. Okay. My other question is the amount of 
attrition that happens at CBP. It is fairly high. I was just 
trying to figure out ways, and maybe you have some solutions, 
to try to minimize that attrition because it takes what, about 
a 1\1/2\ years to actually train an officer, and when you have 
an increasing level of attrition, if that is occurring today--I 
don't think it is right now because the economy is bad--but how 
do we keep those levels so they are acceptable so that we can 
keep men and women on the front lines there at our border who 
have the experience to actually spot, you know, somebody who is 
trying to get contraband across the border because I notice 
that some of the people, it is just ingrained in them their 
ability to be able to spot out some of these is a little off 
but also it takes a lot of experience.
    Mr. Winkowski. Well, our attrition rate right now is about 
3 percent, which is not bad. A lot of that has to do with 
really the work that the committee and subcommittee have done 
over the years with us. The committee has been very, very 
supportive of giving us CBP officers law enforcement retirement 
coverage, which is very, very important, and we truly 
appreciate that.
    Also, last year we were able to increase the grade level 
for the Border Patrol agents as well as for CBPOs as well as 
our agriculture specialists. So back many years ago when I 
started in this business as a customs inspector I became a GS-9 
and asked my boss when I could become a GS-11, and he told me 
15 years, and he was right. Today our officers go up to 11th--
7, 9, 11, 12--and it has to do with really the responsibility 
that are placed on the men and women's shoulders in CBP and the 
Department.
    So our attrition rate is low right now. I like to think a 
lot of that has to do with the fact that the retirement and the 
grades, but we are also in some tough economic times. So it 
will be interesting to see that as time goes on and we dig our 
way out of this economic situation that we are in if there will 
be more movement.
    I think the other thing we have to keep in mind is unlike 
when I came in this organization, I am under the civil service 
retirement system. Once you are in, you are in. You leave, you 
lose everything. These officers now are under FERS, and it is 
401 and it is not unusual for this generation to have four or 
five different jobs. So we are dealing with a whole different 
clientele as well than from my generation.
    Mr. Quayle. Thank you, Mr. Commissioner. Thank you, Madam 
Chairwoman.
    Mrs. Miller. The Chairwoman now recognizes the gentleman 
from South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman. Commissioner, I 
appreciate the job you guys do and I will talk about that a 
little bit.
    I share President Reagan's vision for America as a shining 
city on a hill, and when I heard President Reagan talk about 
that, he talked about that city may have to have walls, and if 
the city has walls, then there would be gates and that those 
gates would facilitate the flow of legitimate travel, commerce, 
and legal immigration.
    We have had numerous hearings here in this committee about 
our border. Being from South Carolina, we are about as far away 
from the Northern and Southern border as you can get, and 
although we have a natural port in Charleston and Georgetown, 
where we do have some commerce and other issues come through 
South Carolina, the issue that concerns my constituents are 
what comes across our Southern border, and that seems to be the 
glaring issue of the day.
    So it is a concern of ours, and I want to thank you guys 
because you man those gates that President Reagan talked about. 
So as we talk about operational control with Chief Fisher and 
with Secretary Napolitano, let me be clear that where they are, 
the point they have arrived at with operational control and the 
point that I am at and when I look at the Secure Fence Act of 
2006 and the definition of operational control, they are 180 
degrees apart. So I don't believe we are there.
    But the line of questions I would like to talk with you 
about today is the Operation Fast and Furious that the ATF has 
and guns being smuggled across the U.S. border and comments of 
the administration with regard to guns.
    Secretary of State Hillary Clinton said this: She said our 
inability to prevent weapons from being illegally smuggled 
across the border to arm these criminals causes the deaths of 
police officers, soldiers, and civilians. The U.S. State 
Department claims that 95 percent of all drug-related murders 
in Mexico used firearms obtained in the U.S.A., and that seems 
awful high to me.
    I understand that since 2008 the ATF has been conducting 
this operation known as Fast and Furious, 1,998 guns purchased, 
797 of which were later linked to crimes. Two of these guns 
were recovered at the crime scene where Border Patrol agent 
Brian Terry was murdered this past December. Secretary 
Napolitano has denied knowing about the program and Attorney 
General Eric Holder has admitted that he knew of the operation 
but stated that cross-border gun trafficking was not 
acceptable.
    I am greatly concerned about this administration's lack of 
knowledge about those operations but also lack for concern for 
the dangers to the American people on our Southern border. So 
the question, one question I have for you is was CBP aware of 
and involved in that operation?
    Mr. Winkowski. Not that I am aware of, no.
    Mr. Duncan. Not that you are aware of.
    Mr. Winkowski. No.
    Mr. Duncan. You are aware of the on-going border violence 
along the border, as you deal with it every day. Many experts 
believe that Mexican drug cartels and the terrorist 
organization Hezbollah have been working together for years.
    In the face of such threats to our National security, 
operations like Fast and Furious only increase the threat of 
terrorist attacks against America, I believe, and I am outraged 
that this administration refuses to honestly assess the active 
threats on our Southern border.
    So I just ask that you and your area within the Department 
of Homeland Security continue to be aware of the terrorist 
threats along our Southern border. The fact that operations 
such as Fast and Furious, although had the right intention of 
trying to control illegally smuggled weapons across the border, 
sometimes, Madam Chairwoman, the consequences can be damaging 
to the liberties of Americans.
    I am a strong advocate for the Second Amendment right and 
agree with the Senator from Texas who recently said that he 
didn't think that the solution to Mexico's problems was to 
limit the Second Amendment gun rights in this country, and so 
when I see that Secretary Clinton and others have pointed to 
American weapons being smuggled and want to limit sales along 
our border to Americans it concerns me. They want to limit new 
purchases along the border, and my knowledge from studying this 
is that the average age of a weapons seized in Mexico is over 
15 years old, and so we need to be cognizant and aware of that.
    So I just stop there, Madam Chairwoman. Thank you.
    Mrs. Miller. I thank the gentleman, and the Chairwoman now 
recognizes the gentleman from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chairwoman. I just want to 
raise the issue of congestion at land ports of entry, and it 
poses a number of problems relative to security, but also 
environmental problems as well, and idling truck engines emit a 
lot of carbon dioxide and nitrogen oxide, which poses major 
threats to the environment generally and to the areas 
surrounding these land port ports of entry.
    Do you have any data relative to--I represent the Buffalo 
area, which includes the Peace Bridge, which is the biggest 
Northern border crossing for passenger vehicles. Any data 
relative to that issue? Have you heard from stakeholders in 
that community? As you may know, from the past 2 decades we 
have been planning to build more capacity at the bridge and a 
new American Plaza as well. So just can you enlighten us at all 
on that issue of congestion and mitigation efforts relative to 
relieving that congestion?
    Mr. Winkowski. Yeah, we meet on a regularly occurring basis 
with the stakeholders, the bridge authorities up there in 
Buffalo as well as other locations. A lot of the congestion has 
to do with footprint issues that I know you are very familiar 
with, Congressman.
    Some of the things that we are doing is certainly looking 
at wanting to get more and more people into trusted travel 
programs, our NEXUS program and certainly on the cargo side C-
TPAT and Fast, so we can do that risk segmentation, we can get 
those low risk people out and focus in on those individuals 
that need to be focused in on.
    We are also working a joint effort with Transport Canada 
and CBSA and our DOT to get accurate wait time measurements, 
okay, from the standpoint of using technology and we are going 
to be testing some systems, I believe it is up in Blaine--
excuse me, up in Peace Bridge, Buffalo, and sometime this year, 
as well as putting signage up as you have some of these other 
crossings that aren't all that far away that aren't as busy and 
can we come up with a system where if you are thinking of going 
over Peace Bridge, instead of going over Peace Bridge we have a 
sign that says if you go to Whirlpool, it is a 5-minute wait.
    Mr. Higgins. We don't want to divert traffic. I think the 
problem--let me also say this. I have only a couple of minutes.
    The issue of using technology for like the NEXUS pass it 
makes a lot of sense, but if you don't have the capacity at the 
bridge to get those vehicles to those, you know, expedited 
review and approval, then it doesn't do you much good and that 
is part of the problem. The Peace Bridge you only have three 
lanes and trucks can't get and passenger vehicles can't get to 
those lanes because of the congestion.
    Second, just on the issue, should border management--or 
pre-clearance has been deemed dead by the Secretary.
    Mr. Winkowski. Correct.
    Mr. Higgins. Can you elaborate a little bit on this concept 
of pre-screening?
    Mr. Winkowski. Well----
    Mr. Higgins. Is it workable?
    Mr. Winkowski. I don't know what you mean by pre-screening. 
I mean----
    Mr. Higgins. Well, the President and the Prime Minister of 
Canada have talked about cooperative efforts to make more 
efficient----
    Mr. Winkowski. Right, I am familiar with that. Well, you 
know, I think it is working with the Canadian government and 
getting as much advance information as possible so you can make 
judgments and that you can make judgments from the standpoint 
of what is deemed low-risk and what is not deemed low-risk and 
being able to build on those pillars that are in that document. 
You know, we are still working through a lot of these pillars 
and a lot of these issues and working very closely with the 
Canadian government, and we continue to look at new and 
innovative ways. I guess one of the concerns that I have is you 
know I went up to Peace Arch and I looked at that beautiful 
facility and how much bigger can these things get, hundreds of 
millions of dollars. You look at San Ysidro, $600 million at 
the end of the day, and it is not all about brick and mortar. 
Brick and mortar is important, I understand that, but it is 
also how do we leverage advance information, how do we 
segregate that low-risk traffic so at somewhere along the line 
perhaps they don't even have to come through a port of entry as 
we know a port of entry today. I think it is that kind of 
innovation that we have got to work through with Canadian 
government as well as the Mexican government.
    Mr. Higgins. Thank you.
    Mrs. Miller. I thank the gentleman and before we go to our 
next round of witnesses, our next panel, I have a follow-on 
question for you as well, sir.
    You know, I was trying to take notes when you were talking 
about Blaine, Washington, and what you described as state-of-
the-art and some of the various things you said there: Enough 
lanes, reduced wait times, electronic signage, audio-visual or 
video in booths, hardened barriers, robust out-bound. I am sure 
I missed a few. I was trying to write them down as you were 
mentioning them all there.
    But I say that because one of our next witnesses is going 
to be from the Northern border, from the Blue Water Bridge, and 
Mr. Higgins was just mentioning it with the Peace Bridge, and I 
am sure this is so in many other areas, where the Canadians 
have actually done their plaza expansion on their side and the 
United States has not done the plaza expansions on our side and 
much of the problems that we are having that are expediting is 
obviously just not having enough capacity to accommodate what 
we need to accommodate for expediting the traffic, as well as 
ensuring all of our security concerns as well.
    I am just wondering how you came to Blaine, Washington. I 
know they need it. But I am just saying what is your 
priorities--how do you prioritize where you are going to go to 
expend those kinds of funds?
    I ask that question because in regards to the city of Port 
Huron, which is the municipality that holds the American side 
of the Blue Water Bridge, where at the foot of that bridge is 
actually the genesis of both I-69 and I-94, two major trade 
corridors. It is the second-busiest. I sound like a broken 
record here, but the second-busiest border crossing on the 
Northern tier. We have been dealing with CBP and our Michigan 
Department of Transportation, et cetera, GSA, to expand the 
plaza on the U.S. side for a decade, and we had originally 
started with 87 acres as a footprint, gone through a number of 
different iterations. We are now at 16 acres. So they 
significantly downsized what they were thinking about there, 
and CBP still is not able to actually say that they are going 
to have enough to put a little skin in the game there.
    So we are not quite sure where this entire thing is going. 
In the interim you have a community that essentially has got, 
you can imagine, all the condemnation and funds that we have 
gotten to tear down all of this. We now have a huge amount of 
acreage sitting vacant in the middle of what was once a very 
thriving, busy area. So we do have concern about that, and 
again we want to work with CBP. We are happy to be an 
international border agency.
    But I am just wondering how you prioritize where you are 
going with these various POEs and the plaza expansions, both in 
the south and north. Do you have a list of what they are?
    One follow-on thing, as you were mentioning, the NEXUS 
lanes and the Trusted Travelers and that, I mean I have my 
NEXUS card right here in purse. We have it on our Congressional 
website. We try to promote all of these various things to help 
our folks understand how important it is to be an active 
participant, just as a citizen, of trying to get through 
quickly.
    But in regard to--for instance, in our area, much of the 
traffic that is coming through there is automotive-related. So 
we do have--the CBP, et cetera, has a number of different 
programs that they deal with to expedite the flow of traffic, 
but the whole issue, I am not sure if this is the correct 
characterization of reverse inspection--that is what I call 
it--the reverse inspection where you actually would pre-clear 
before they come across the border, whether that is the north 
and the south, and I know you have different dynamics and 
relationships with the Mexican authorities as you do the 
Canadian government.
    Do you have any suggestions on how we may be able to assist 
in trying to get a reverse inspection type of scenario, if you 
think that would be helpful as far as expediting commerce as 
well?
    Mr. Winkowski. Well, a couple of points I would like to 
make. First of all. Thank you for being a NEXUS member and 
promoting the program.
    These projects take 7 years from cradle, from the beginning 
to the cutting the ribbon. So Blaine, you know, that was in--it 
was in the works for about 7 years, as is San Ysidro, and we do 
have criteria from the standpoint of need and congestion and 
things of that nature, which I will be more than happy to brief 
you on.
    As far as reverse inspection, I think we need to work 
through those ideas, and I think in terms I was telling Mr. 
Higgins, I think one of the challenges that we have, a positive 
challenge that we have, is I think a real strong relationship 
with the Canadian government and the border vision. I think it 
really opens up a lot of opportunity for us to be more 
creative, because as I mentioned earlier, it can't all be about 
brick and mortar, you know. I am very familiar with the Blue 
Water Bridge and what everybody went through. I worked very 
closely with stand on the Canadian side. I have known her for 
many, many years.
    But we have got to look at not only brick and mortar but we 
have got to look at more innovative ways. The automobile 
industry, extremely low-risk, extremely, as you well know, 
time-sensitive, that backseat and that trailer going into an 
automobile in 2 hours. We understand that, but it is looking at 
those types of transactions and really asking the question why 
do they even have to come through a port of entry as we know it 
today. Okay. We know who GM is, their C-TPAT they are good 
corporate citizens, Chrysler, Ford and many, many other 
companies, and we got to stop looking at the border, as 
Commissioner Burson would say, as the line that begins the 
process. That process begins far interior in a foreign country, 
whether it is Canada or Mexico or in Europe, and be able to 
make sure that we design a system that addresses you know the 
flows of people and things.
    So I think, you know, I will be more than happy to sit down 
on criteria that we use. As you know with Peace or Blue Water 
Bridge, it is a funding issue associated with that and we 
understand the urgency. We understand the need and very, very 
much appreciate kind of reducing the footprint a little bit and 
just handle the cargo side, as I recall, the initial layout.
    Mrs. Miller. Thank you very much. Do you have any further 
questions?
    Mr. Cuellar. Just to say thank you very much for being here 
with us.
    Mrs. Miller. We certainly want to thank you very much for 
your appearance and for your testimony, and with that, we will 
call the second panel. Thank you.
    Mr. Cuellar. Madam Chairwoman, as the witnesses are getting 
into seats I will ask for unanimous consent to make part of the 
record the testimony of Nelson Balido, President of the Border 
Trade Alliance. As you know, this is a nonprofit that has been 
serving as a forum for border trade for many years, since 1986, 
and I would ask unanimous consent.
    Mrs. Miller. Without objection.
    Mr. Cuellar. Thank you.
    [The statement of Mr. Balido follows:]
    Statement of Nelson H. Balido, President, Border Trade Alliance
                             April 5, 2011
    The Border Trade Alliance appreciates the opportunity to submit 
testimony for this important subcommittee hearing on security at our 
Nation's ports of entry.
                    about the border trade alliance
    Founded in 1986, the Border Trade Alliance is a non-profit 
organization that serves as a forum for participants to address key 
issues affecting trade and economic development in North America. 
Working with entities in Canada, Mexico, and the United States, the BTA 
advocates in favor of policies and initiatives designed to improve 
border affairs and trade relations among the three nations.
    BTA's membership consists of border municipalities, chambers of 
commerce and industry, academic institutions, economic development 
corporations, industrial parks, transport companies, custom brokers, 
defense companies, manufacturers, and State and local government 
agencies.
                   a discrepancy in agency resources
    The committee will get no argument from the trade community and the 
constituency that the BTA represents that the Border Patrol is not an 
integral component of our Nation's border security strategy.
    But the increased attention that Congress and this and previous 
administrations has directed towards Border Patrol has left the agency 
responsible for security at the ports of entry, Customs and Border 
Protection, coming up short in the chase for dwindling human and 
technological resources.
    Border Patrol has seen a huge spike in agents since fiscal year 
2004. That year, Border Patrol was allocated $4.9 billion to fund 
10,817 agents. But by fiscal year 2010, Border Patrol was allocated 
$10.1 billion to fund just over 20,000 agents.
    According to a March 30, 2011 GAO report, the Border Patrol is now 
better staffed than at any other time in its 86-year history.\1\
---------------------------------------------------------------------------
    \1\ http://www.gao.gov/new.items/d11508t.pdf.
---------------------------------------------------------------------------
    The same rapid rise in staffing levels cannot be said for CBP 
inspectors at our ports of entry.
         2010 border security supplemental: ports come up short
    The 2010 supplemental border security funding bill provides an 
illustration of how port security often plays second fiddle to security 
between the ports.
    The President in August signed the supplemental appropriations bill 
that allocated $176 million to fund 1,000 new Border Patrol agents. The 
same bill appropriated $68 million for 250 new CBP officers, which was 
half of what the House of Representatives originally sought in July 
2010.
         a renewed commitment to improving port staffing levels
    CBP in fiscal year 2010 was responsible for inspecting 352 million 
travelers and nearly 106 million cars, trucks, buses, trains, vessels, 
and aircraft at over 330 air, land, and sea ports of entry.\2\
---------------------------------------------------------------------------
    \2\ http://www.gao.gov/new.items/d11508t.pdf.
---------------------------------------------------------------------------
    By increasing the number of frontline inspectors, Customs and 
Border Protection can devote the manpower necessary to interdict those 
individuals who would seek to do us harm. But the increased staffing 
levels can play a marked role in the facilitation of trade and travel 
by letting safe travelers and cargo pass more quickly into U.S. 
commerce.
    To that end, the BTA is encouraged that Rep. Silvestre Reyes is 
likely to re-introduce legislation that would markedly improving CBP 
staffing levels at the ports of entry.
    His bill introduced in the last Congress, the Putting Our Resources 
Towards Security Act, which we expect will serve as the basis for 
forthcoming legislation, called for an increase of 5,000 CBP officers 
over a 5-year period at the ports of entry.
    The BTA was strongly supportive of that bill for two obvious 
benefits a dramatic increase in port personnel offers: More inspectors 
to curtail contraband smuggling, and more inspectors to facilitate 
legitimate trade and travel. Simply said, there is no one single 
resource as valuable as increased human capital at our points of entry 
that results in increasing the flow of trade, thus increasing the flow 
of tax revenue through international travelers' purchases of goods and 
services on the U.S. side of the border.
customs-trade partnership against terrorism: improvement can strengthen 
                           security, economy
    CBP inspectors at the ports are charged with the important dual 
mission of security and facilitation.
    Inspectors, using technology and relying on experience, make quick 
decisions on whether to release a shipment or traveler into the United 
States or refer that cargo or vehicle to a secondary inspection area 
for more intense inspection.
    The Nation's major importers are especially sensitive to the role 
CBP plays in a company's bottom line. If there aren't enough inspectors 
to open up all the lanes at a land border port during a period of peak 
traffic, then shipments can get stuck waiting in sometimes miles-long 
backups, stalling just-in-time manufacturing operations and increasing 
costs.
    CBP and the private sector are working closely together to make the 
international supply chain stronger and to help speed the passage of 
legitimate cargo in order to allow our limited inspection resources to 
focus on infrequent, less-known shippers.
    The trade community is acutely aware of the economic damage that 
our country would suffer if an unsecured supply chain were to 
facilitate terrorist activity. And day in and day out, companies are 
undertaking measures--both seen and unseen--to root out the scourge of 
drug and human trafficking and the illegal export of guns and currency 
that fuel the cartel violence to our south.
    For example the vast majority of companies engaged in robust 
international trade are members of the Customs-Trade Partnership 
Against Terrorism, otherwise known as C-TPAT. Members of C-TPAT partner 
with CBP to ensure that their supply chains are secure by strengthening 
the physical security of warehouses and manufacturing facilities, 
strengthening the security of conveyances by using special seals on 
truck trailers and employing shipment tracking technology such as GPS 
to ensure that a shipment is not tampered with, in addition to host of 
additional measures designed to minimize as much as possible the chance 
that a shipment could be compromised to smuggle contraband into the 
United States.
    In exchange for C-TPAT members undertaking the oftentimes expensive 
steps to make their supply chains stronger from point of origin to 
destination, CBP commits to facilitating expedited service at the U.S. 
ports of entry. Unfortunately, the trade community of late has been 
growing frustrated with the program's failure to deliver clearly 
identifiable benefits to its members.
    To that end, the BTA has produced a detailed recommendations paper 
\3\ for ways to improve the program and has engaged in a thus far very 
productive dialogue with CBP in exploring pilot programs to ensure that 
C-TPAT is delivering on its promises to participating companies.
---------------------------------------------------------------------------
    \3\ http://www.thebta.org/btanews/bta-puts-forth-recommendations-
for-an-improved-c-tpat.html.
---------------------------------------------------------------------------
             curtailing the outbound flow of guns and money
    Our membership is concerned about any illegal trade that could 
disrupt supply chains and put our country's physical and economic 
security at risk. We are especially sensitive to drug cartel violence 
in Mexico and concerns that that violence could spill over the U.S.-
Mexico border.
    We understand and support the desire to conduct out-bound 
inspections of cars and trucks in the border region to prevent the 
illegal export of firearms and currency into Mexico.
    We would encourage CBP, however, to work with the Bureau of 
Alcohol, Tobacco, and Firearms and local law enforcement agencies to 
base its inspection operations on actionable intelligence whenever 
possible. Random inspections are akin to a search for a needle in a 
haystack, often resulting in increased delays and congestion to 
residents and the trade. It is our hope that an open dialogue between 
CBP, ATF, and other law enforcement agencies can shrink the size of the 
haystack.
frustrated with the feds, states poised to engage in border inspections
    Getting out-bound inspections right is critical for CBP and the 
Department of Homeland Security because the border States are poised to 
fill the leadership vacuum on this issue, which we believe holds the 
potential to make a bad situation worse.
    We are concerned that State legislatures, which have grown 
increasingly frustrated with the Federal Government's failure to 
adequately secure our borders, will direct State departments of public 
safety to conduct their own border region inspection operations.
    We do not want to see a needless turf war sparked between competing 
State and Federal agencies in the border region. Legitimate cross-
border trade and travel is too vital to the economic health of a 
country struggling to emerge from the throes of a deep recession to 
risk it to unnecessary slowdowns in trade.
    We strongly support the President's call to double U.S. exports 
over a 5-year period. We will not achieve the President's goal, 
however, if we make it harder for legitimate cargo to exit this country 
due to poorly considered out-bound inspections.
                          a note about sbinet
    The BTA recognizes that Members of this committee were dubious of 
the effectiveness of SBInet, the so-called ``virtual fence'' in 
southern Arizona that was recently canceled by DHS.
    Being the only third-party organization allowed to visit the 
program facility on a fact-finding mission late last year, and after a 
presentation with Border Patrol agents in the Tucson sector where the 
system is deployed and having studied the issue closely, we believe 
that the system should have been allowed to continue, especially in 
light of a recent request for information from DHS that calls for much 
of the same technology already in use as part of SBInet in southern 
Arizona.
    While this testimony has focused mostly on security at the ports of 
entry, we're not blind to the fact that our constituency is in the 
midst of an uphill climb to direct attention to the ports when the area 
between our ports is perceived as porous.
    We believe that an effective SBInet program between the ports will 
allow more human resources to be directed to the ports themselves. We 
are encouraged that DHS still believes that technology is a vital 
component to any border security strategy. We hope the Department gives 
the system in southern Arizona another look as it moves forward with 
the latest iteration of its border security strategy.
    The Border Trade Alliance appreciates the opportunity to submit 
these comments for the record. We welcome the opportunity to testify 
before your committee in the future and we offer our 25 years of 
experience in border affairs as a resource to your committee as you 
investigate these and other important issues affecting border security.

    Mrs. Miller. The witnesses are prepared. We will begin with 
our second panel. I think what we'll do is just do the intros 
first, and then we will start with our first witness.
    The first will be Stan Korosec, who is the Vice President 
of Operations of the Blue Water Bridge Canada. He was hired by 
the Blue Water Bridge Canada as Vice President of Operations in 
September 2003. He is responsible for the overall physical 
security of the bridge and the plaza, overseeing the operations 
and currency exchange departments, as well as the customer 
service department, a member of numerous binational communities 
and organizations dealing with border issues. Stan is also the 
immediate past President of the Public Border Operators 
Association, which represents all the publicly owned Ontario-
Michigan, Ontario-New York border crossings.
    Our second witness will be Timothy Koerner, who is the Vice 
President and Chief Security Officer of Canadian National 
Railroad Company. He joined CN as an Assistant Vice President 
of Risk Management in April 2008 after a distinguished career 
in law enforcement and risk management, including 25 years with 
the United States Secret Service, culminating as the Assistant 
Director for the Office of Protective Operations. He was 
responsible for overseeing risk management functions, including 
the Canadian National Police.
    Our third witness on the second panel is Richard Cortez, 
who is the Mayor of McAllen, Texas. In 2005, Mayor Cortez was 
elected--would you like to----
    Mr. Cuellar. You are doing fine. I am very proud of Mayor 
Cortez being here with us, but go ahead and continue.
    Mrs. Miller. Okay. He was elected the 18th Mayor of the 
City of McAllen. He was reelected for a second 4-year term in 
May 2009, and in addition to being the Mayor is a member of the 
Texas Border Coalition, the TBC. The TBC is a collective voice 
of border mayors, county judges, and economic development 
organizations focused on issues that affect the Texas-Mexico 
border.
    At this time, the Chairwoman would like to recognize Mr. 
Korosec. Stan, welcome, and we appreciate your traveling here 
to Washington and look forward to your testimony.

 STATEMENT OF STANLEY F. KOROSEC, VICE PRESIDENT, OPERATIONS, 
                    BLUE WATER BRIDGE CANADA

    Mr. Korosec. Well, thank you very much, Chairwoman Miller 
and Ranking Member Cuellar and distinguished Members of the 
subcommittee. It is a pleasure to appear before you today to 
discuss issues with respect to manpower infrastructure and the 
allocation of Customs and Border Protection resources at the 
Blue Water Bridge.
    As you know, the Blue Water Bridge provides a critical 
transportation link for both the United States and Canada. As 
the Chairwoman said, it is the second-busiest commercial truck 
crossing on the Canada-U.S. border and ranks third overall when 
including passenger vehicle traffic. Our crossing accommodates 
approximately 15 percent of all surface transportation trade 
between our two countries.
    The bridge is also extremely important to our local 
communities on both sides of the border, as you have heard.
    At the Blue Water Bridge, many positive steps have been 
taken and are being taken to ensure border efficiency and 
security, and I would like to provide a couple of examples. We 
at the Blue Water Bridge have formed strong partnerships with 
CBP, its Canadian counterpart, the Canada Border Services 
Agency, and with MDOT. In fact, we consider ourselves 
collectively as a Blue Water Bridge team. In fact we will meet 
with them in the next month for our annual pre-summer plan 
meeting where we prepare for the busy summer traffic season 
ahead of us.
    As far as staffing is concerned, right now for CBP, there 
is not a staffing issue at the Blue Water Bridge at the present 
time. Summer of 2007 reminds us what can occur when staffing 
levels are not adequate. Long delays in excess of 1 hour headed 
into the United States, particularly during the summer months 
of that year, were experienced virtually every day at the Blue 
Water Bridge.
    We appreciate the hard work of Congresswoman Miller for her 
efforts in helping resolve that crisis, and as well Assistant 
Commissioner Winkowski, who formed a dwell time task force of 
which I continue to be a member along with other border 
operators and stakeholders.
    We are pleased to see that the I-94, I-69 reconstruction is 
underway. Similar reconstruction of the Highway 402 project in 
Canada is also underway. At Blue Water Bridge Canada we have 
completed the first phase of a $110 million Canadian plaza 
improvement plan.
    A lot of positive things are happening. Efforts are being 
put forth. It is not only because we are dedicated to 
maintaining a safe and secure and efficient border crossing, 
but it is also out of necessity.
    I provided you with Appendix B, which clearly points out 
the inadequacies of the present U.S. plaza infrastructure, 
particularly regarding the current number of primary inspection 
lines for CBP. You compare these to other facilities, you can 
see that we put more traffic through our existing PILs than any 
other border crossing on the Canada-U.S. border. In spite of 
this, we still experience delays, particularly in the 
summertime.
    We talked about the new U.S. plaza. In May 2009 it received 
a record of decision. The $530 million plaza will help resolve 
all of these issues, facilitating legitimate trade and travel, 
as well as security. Currently, there is no place on the 
existing plaza in which to unload and inspect the contents of a 
commercial vehicle. This is at the second-busiest commercial 
crossing on the Northern border.
    To unload a commercial vehicle, officers are forced to 
escort the uninspected vehicle to the Port Huron community to 
an off-site inspection facility. This procedure introduces 
increased security risks and is an inefficient use of limited 
CBP staff at the existing plaza.
    The plaza, as we have heard, has been scaled down from a 
$280 million Federal contribution to $110 million. Before 
design and construction can begin CBP must secure funding in 
the 2013 appropriations budget. As a consequence, construction 
of the much-needed plaza is not expected to begin until 2015 at 
the earliest.
    Now, although this scaled-down plaza as currently approved 
will resolve some of the present inadequacies, it does not 
address recommendations addressed by the originally approved 
plan. In particular, there are no accommodations in the scaled-
down version for out-bound inspection facilities. The existing 
plaza that will remain a part of the latest design is elevated 
some 26 feet above ground level supported by a platform over 60 
years old, with a major thoroughfare traversing underneath it.
    The connectivity between I-94 and I-69 is not properly 
achieved, where we will have brand-new three lanes of I-94, I-
69 coming to a plaza that only accommodates two lanes. That can 
do nothing but cause more traffic and safety concerns. In 
either scenario, an increase in the number of primary 
inspection booths will require the appropriate CBP resources to 
staff the booths when required.
    As construction for the new plaza is not likely to begin 
until 2017, we have come up with a new way to expand some 
capacity at the Blue Water Bridge in the interim. This was put 
forth by a CBP field office in Detroit where we could add some 
staggered booths and some stacked booths. Because we are an 
elevated plaza, it is tough to do that. So this was put forth 
in November, and as of March 26, it has had one conference 
call, and nothing further, continues to be studied.
    Blue Water Bridge Canada has offered to finance this 
project because we believe in the interim it will allow 
increased capacity and efficiency at this border crossing 
without affecting security. We are disappointed that this has 
not moved forward, and we look forward to some discussions in 
the very near future.
    In conclusion, we do the best with what we have. It is what 
we have is the issue at the Blue Water Bridge. Thank you for 
this opportunity to testify about some of the positive work 
that has taken place at the bridge and some of the real 
challenges and opportunities before us. I can assure you that 
the Blue Water Bridge team will continue to ensure that this 
gateway is safe, secure, and efficient and enjoyable for all 
law-abiding travellers, and I look forward to any questions 
that you might have.
    Thank you.
    [The statement of Mr. Korosec follows:]
                Prepared Statement of Stanley F. Korosec
                             April 5, 2011
                              introduction
    Thank you, Chairwoman Miller, Ranking Member Cuellar, and 
distinguished Members of the subcommittee. It is a pleasure to be 
invited and appear before you today to discuss issues with respect to 
manpower, infrastructure, and the allocation of Customs and Border 
Protection (CBP) resources at the Blue Water Bridge Port of Entry, 
between the State of Michigan, U.S.A. and the Province of Ontario, 
Canada.
               overview of the blue water bridge gateway
    Ownership and operation of The Blue Water Bridge (BWB) is shared by 
two independent entities, the Michigan Department of Transportation 
(MDOT) and Blue Water Bridge Canada (BWBC). BWBC is a Canadian Federal 
Crown Corporation which operates at arms' length from the Government of 
Canada. BWBC owns and operates the Canadian portions of the twin 
bridges connecting Sarnia, Ontario and Port Huron Michigan. MDOT 
operates the U.S. portions of the twin bridges. BWBC is a totally self-
funded entity, receiving no appropriations from the Government of 
Canada. BWBC is governed by a board of directors and reports to the 
Parliament of Canada through the most senior elected official, the 
Minister, of the Department of Transportation. Our mission is ``To make 
our customers' gateway experience safe, efficient, and enjoyable.''
    The BWB provides a critical transportation link for both the United 
States and Canada. It is the second-busiest commercial truck crossing 
on the U.S./Canada border and the most active livestock entry point 
between our two nations. It ranks third overall when including 
passenger vehicle traffic. The crossing accommodates approximately 15 
percent of all surface transportation trade between our two countries. 
Approximately 25 percent of the commercial traffic is related to the 
auto industry, which is heavily reliant on predictable crossing times 
for its just-in-time components delivery systems. The bridge's 
geographic location, supported by direct highway access makes this a 
crossing of choice for shipments headed into the States of Michigan and 
Illinois and those in the southern and western regions. Commercial 
dangerous goods and hazardous materials also cross this facility on a 
regular basis.
    The crossing is extremely important to the local communities on 
both sides of the border, whose residents cross frequently to work and 
for visits with family and friends, as well as for shopping and 
recreational purposes. The recent strength of the Canadian dollar and 
the improving Canadian economy have contributed to a large increase in 
the number of Canadian visitors to the United States, which has 
contributed to the local economic recovery efforts of Port Huron, 
neighboring St. Clair Township, and the State of Michigan.
               attributes of an efficient border crossing
    1. For a border crossing to work safely and efficiently, we believe 
        that there are six (6) key components that must be considered. 
        They are: Integrated highway approaches, as well as local 
        access, to the border crossing itself.
    2. Appropriate sized and configured plazas, including sufficient 
        infrastructure and inspection facilities for customs and 
        immigration functions.
    3. Suitable conveyance capacity of the bridge structure and lanes.
    4. Modern technology services and support systems.
    5. Appropriate staffing levels at the primary inspection lanes.
    6. Operational partnerships involving all primary stakeholders.
    At the BWB, many positive steps have been or are being taken to 
address these issues and I would like to provide some examples. We at 
the BWB have formed strong partnerships with CBP, its Canadian 
counterpart, the Canada Border Services Agency (CBSA) and with MDOT, in 
order to make this crossing the best and most secure that it can be. In 
fact, we consider ourselves collectively as the BWB ``team.'' I 
acknowledge Chris Perry, Director of Field Operations, CBP/Detroit, CBP 
Port Huron Port Director Dave Dusellier and Mike Szuch, MDOT General 
Manager at the BWB, for their efforts and strong commitment to this 
approach and the shared objectives of our team. The BWB team has worked 
together diligently to develop practical and effective protocols for 
maximizing the use of the restrictive and aging infrastructure, 
primarily the U.S. plaza and Primary Inspection Lanes (PILs) for CBP. 
Traffic and lane management during peak volumes ensures that both 
commercial and passenger vehicle traffic move safely and efficiently, 
with border security maintained. We will meet within the month for our 
annual pre-summer planning session, in order to prepare for the busy 
summer traffic season ahead. Our four agencies, along with local law 
enforcement and emergency responders will discuss a coordinated 
approach to traffic control, maintenance, construction, emergency 
preparedness, and other activities that could affect the BWB and 
surrounding area. Common strategies and protocols are maintained and 
routinely updated, in an effort to mitigate any potential concerns and 
threats. In shared initiatives regarding public awareness, information, 
and education, CBP and CBSA officers have assisted BWBC at events in 
local shopping malls and other public forums to promote the NEXUS and 
FAST programs, because these programs make the border crossing safer, 
more efficient, and enjoyable. BWBC alone has invested over $100,000 in 
marketing and promoting the trusted traveler initiatives, as an 
effective means of promoting a more secure and efficient border 
crossing.
    CBP staffing is not an issue at the present time. However, the 
summer of 2007 serves as a reminder of what can occur when staffing 
levels are not adequate. Long delays, in excess of one (1) hour heading 
into to the United States particularly during the summer months were 
experienced virtually every day at the BWB. In fact during the entire 
2007 calendar year, there were 151 days where delays of 1 hour or more 
occurred. We appreciate the efforts of Congresswoman Miller for her 
efforts in resolving that crisis. The following year that number was 
reduced to 32. In calendar 2010 the number rose to 37. See Appendix 
``B''. We also appreciate Assistant Commissioner Tom Winkowski who 
formed a Dwell Time Task Force of which I continue to be a member, 
along with other border operators and stakeholders. The taskforce has 
been successful in developing a coordinated approach to facilitating 
legitimate trade and travel, while enabling CBP to continue to fulfill 
its mission.
    Continuing on the positive efforts, we are pleased to see that the 
reconstruction of Interstate I-94 and I-69, which serve as approaches 
to the BWB on the U.S. side, is underway. This $90-million project, 
including the reconstruction of the Black River Bridge, is supported by 
a $30-million TIGER grant and will greatly improve the safety and 
efficiency of local and Canada-bound traffic. A similar reconstruction 
of the Highway 402 approach to the BWB plaza on the Canadian side is 
also underway and scheduled to be completed in 2012.
    BWBC has completed the first phase of its $110-million Canadian 
Plaza Improvement Plan. In June, a new $60-million facility, including 
seven (7) new commercial PILs for CBSA, will open. The facility, 
accredited as a Leadership in Energy and Environmental Design building, 
will house the bridge contingents of CBSA, and the Canadian Food 
Inspection Agency, along with several customs brokerage firms and our 
BWBC administration. The structure is an integral part of our on-going 
plans to further improve the safety, security, and efficiency of the 
Canadian Plaza during the coming decades.
    These many positive efforts are being put forth not only because we 
are dedicated to maintaining a safe, secure, and efficient border 
crossing, but also out of necessity. The attachment I have provided to 
you (Appendix B), clearly points to the inadequacies of the present 
U.S. Plaza infrastructure, particularly regarding the current number of 
(PILs) for CBP, which are woefully insufficient considering current and 
projected traffic needs, particularly when compared to facilities 
provided at the other major land ports of entry (LPOE) along the U.S./
Canada border. The 2009 figures I have compiled demonstrate that the 
BWB processes more vehicles per PIL than any other border crossing. In 
spite of all our efforts described earlier, delays are very common for 
U.S.-bound traffic, particularly during the busy summer months. These 
delays have serious, adverse economic consequences of local, regional, 
National and international concern. Further, they negatively affect our 
shared environment, as hundreds of vehicles sit idling in long queues.
                     current infrastructure issues
    In May, 2009, the United States Federal Highway Administration 
(FHWA), MDOT, CBP, and the General Services Administration (GSA) 
achieved a Record of Decision to proceed with a $583-million project to 
expand the U.S. LPOE and the connecting I-94/I-69 freeways. The 
proposed expansion project would increase the existing customs and toll 
plaza from 18 acres to 56 acres. The project would also lower the 
elevated plaza to grade, add seven (7) more PILs and provide CBP 
appropriate space dedicated to secondary inspection areas for both 
commercial and passenger vehicles. This was a critical consideration, 
as additional space is needed to improve security associated with the 
screening of commercial vehicles at the BWB LPOE. Currently, there is 
no place on the existing LPOE in which to unload and inspect the 
contents of a commercial vehicle--this at the second busiest commercial 
crossing on the Northern border. To unload a commercial vehicle, CBP 
officers are forced to escort the un-inspected vehicle through the Port 
Huron community to an off-site inspection facility. This procedure 
introduces increased security risks and is an inefficient use of the 
limited CBP staff at the existing LPOE, resulting in increased delays 
for legitimate shipments delivery goods into the United States. The 
proposed BWB LPOE project will correct this existing deficiency and is 
anticipated to reduce crossing delays coming into the United States 
from an existing average of 28 minutes to a proposed average delay time 
of 3 minutes.
    Citing funding limitations, officials from the CBP, the FHWA, the 
GSA, and MDOT announced that their BWB Plaza Expansion Project will be 
scaled back. The estimated construction cost of the lower-cost 
alternative for the planned, expansion of the U.S. Plaza is $110 
million.
    Before design and construction can begin, CBP must secure funding 
in the 2013 appropriations budget. At this time, CBP has indicated it 
will be ready to commence design in 2013, pending the availability of 
resources. As a consequence, construction of the much-needed plaza 
expansion project is not expected to begin until 2015, at the earliest.
    Although the plaza design, as currently approved, will resolve some 
of the present inadequacies, including the addition of 12 new 
commercial PILs, the scaled-down version does not address 
recommendations addressed by the originally approved plan, which 
centers on the specific purpose and need for the plaza redesign upon 
which the project was initiated. In particular, no accommodations have 
been made for out-bound inspection facilities. The existing plaza that 
will remain a part of the latest design is elevated some 26 feet above 
ground level, supported by a platform over 60 years old, with a major 
thoroughfare traversing under it. In this latest scaled-down version, 
the connectivity to I-94 and I-69 is not properly achieved, as per the 
originally approved plan. Given the long-standing importance of the BWB 
trade corridor, combined with the most recent bi-lateral initiative of 
President Obama and Canadian Prime Minister Harper--Beyond the Border: 
A Shared Vision for Perimeter Security and Economic Competitiveness, we 
can assure you that the need for improved, secure facilities at BWB, 
which had been effectively addressed by the originally approved plaza 
design, has not diminished. In fact, the need for further essential 
improvements will remain, despite the implementation of the scaled-down 
alternative plan. In either scenario, an increase in the number of PILs 
will require the appropriate CBP resources to staff the booths, when 
required.
    As construction for the new plaza is not likely to be completed 
until 2017, or beyond, the BWB must make some interim improvements to 
help facilitate the secure and efficient movement of legitimate trade 
and travel that is currently being hampered by the lack of PILs. In 
November, 2010, a proposal originally put forth by the CBP Detroit 
Field Office and subsequently discussed with BWBC and MDOT, was 
submitted to CBP Headquarters, in Washington. The proposal called for 
the construction of 4 ``staggered PIL booths'' and 3 ``stacked PIL 
booths,'' which would add significant capacity to this crossing, as 
required. Realizing the tremendous benefits of this proposal and 
acknowledging tight budgetary constraints in CBP, the BWBC Board of 
Directors has approved financial assistance, in order to move this 
proposal forward, so that the new booths would be functional by summer 
2011. As of March 26, 2011, one conference call to move the initiative 
towards reality has taken place and the project continues to be 
``studied.'' To ensure the project progresses, BWBC offered on January 
27, 2011, to supply up to seven (7) new PIL booths, already completely 
fabricated and ready for delivery, to CBP as one part of BWBC's 
contribution to the project. We are disappointed that this proposal has 
not been given the support it truly deserves, considering the 
significance of this border crossing to the economies of both nations 
and the associated challenges we continue to face. I understand that 
millions of dollars have been invested at much smaller ports on the 
U.S./Canada border, while a relatively minor investment at BWB could 
reap great benefits.
                               conclusion
    Chairwoman Miller, Ranking Member Cuellar, and Members of the 
subcommittee, in short, we do the best with what we have, it is what we 
have that is the issue. Thank you for this opportunity to testify about 
some of the positive work that is taking place at the Blue Water Bridge 
and some of the real challenges--and opportunities--before us. I can 
assure you that the BWB team will continue to ensure that this gateway 
is safe, secure, efficient, and enjoyable for all of its law-abiding 
travelers. I look forward to answering any questions you may have at 
this time.

    Mrs. Miller. Thank you very much. The Chairwoman now 
recognizes Mr. Koerner from CN Rail for his testimony.

   STATEMENT OF TIMOTHY J. KOERNER, VICE PRESIDENT AND CHIEF 
                      SECURITY OFFICER, CN

    Mr. Koerner. Thank you, Madam Chairwoman and Ranking 
Member. Thanks for the opportunity to be here today. I am 
pleased to be joined this morning by Karen Phillips, our Vice 
President for Public and Government Affairs, and Mike Tamilia, 
our Senior Manager for Transborder Operations.
    CN is a Class I railroad, one of only seven in all of North 
America. In addition to our transcontinental operations across 
Canada, CN employs thousands of people in the United States. CN 
owns and operates rolling stock, tracks, yards, and terminals 
in 16 U.S. States. The smooth, yet secure, flow of legitimate 
commerce between Canada and the United States is critical to 
the economies of both countries and to CN. Roughly, one-third 
of CN's revenues are generated from cross-border commerce. 
Combined with the fact that CN operates on a scheduled railroad 
philosophy, the smooth flow of cross-border commerce is 
essential to our operations.
    CN consistently strives to meet our customers' needs for 
timely and efficient delivery. A fluid border is essential to 
this on-time service. CN has a long, positive working 
relationship with U.S. and Canadian Customs authorities. Our 
combined efforts to enhance cross-border security have 
increased substantially in the years following the September 
11, 2001, terrorist attacks.
    Indeed, the governments of Canada and the United States 
have been actively engaged since 2001 on a broad range of 
security initiatives embodied in the Smart Border Declaration 
and in subsequent programs. CN has been a willing and valued 
partner in U.S. and Canadian initiatives intended to enhance 
security while also ensuring the smooth flow of legitimate 
cross-border commerce.
    We are proud of the fact that CN was the first North 
American rail carrier to participate in the U.S. Customs and 
Border Protection C-TPAT, Customs-Trade Partners Against 
Terrorism, and we have taken very seriously our responsibility 
to make needed investments and ensure that the security of our 
operations meet C-TPAT criteria.
    CN has also been a participant for several years now with 
CBSA's version of C-TPAT, which is called Partners-in-
Protection. In these programs we invite scrutiny from 
government, law enforcement agencies. They come to us, they 
examine our facilities, they review our security plans and 
assess our substantial efforts. All of this is done in an 
effort to ensure that both CBP and CBSA accept that CN is a 
known partner when we arrive at the border.
    CN has a police presence. It is kind of unique that we have 
a police presence but we do, and it is on both sides of the 
international border. The CN police officers work in 
collaboration with Federal, State, provincial, local, and 
Tribal law enforcement agencies toward the common goal of 
safeguarding our nations and communities against harm. An 
example of this is our collaboration with the and our 
participation with the IBET team, the Integrated Border 
Enforcement Team, that is in upstate New York outside of 
Buffalo.
    The CN police monitor border crossings with sworn law 
enforcement personnel and the use of technical security 
equipment such as barriers, alarms, and cameras with infrared 
and thermal detection capability. The CN police also conduct 
regular liaison and joint force operations with both U.S. and 
Canadian customs and border agencies in an effort to maximize 
the effectiveness of our collective resources.
    In 2003, CN and Canadian Pacific Railway signed a 
declaration of principles with customs agencies on both sides 
of the border, and this introduced a screening system which is 
known as VACIS. VACIS stands for Vehicle and Cargo Inspection 
Systems. I am sure, Chairman, that you are familiar with it.
    The effectiveness of this gamma ray screening is enhanced 
by the data that is transmitted electronically by rail carriers 
to the customs authority at least 2 hours in advance of 
arriving at the port. As a result, CBP personnel can compare 
what they see on the VACIS image with the rail manifest, which 
specifies the intended content of each and every car and 
container on the train.
    CN crosses the U.S.-Canada border at seven crossing 
locations with a total of about 45 trains per day operating 
northbound and southbound across the border. Our largest 
operation is at the Port Huron-Sarnia crossing at which we 
operate about nine trains per day in each direction.
    A key issue for CN is the harmonization of border 
regulations between United States and Canada wherever possible. 
While recognizing the unique priorities and sovereign rights of 
both nations, CN has long been engaged in encouraging this 
risk-based border security regulations that address security 
issues while also facilitating cross-border trade.
    Most recently, we are looking forward to participating in 
the initiative announced on February 4 by President Obama and 
Prime Minister Harper to pursue a perimeter approach to 
security so as to accelerate the legitimate flow of people and 
services and goods between the United States and Canada. The 
two leaders noted their intent to use a risk management 
approach to foster greater information sharing between agencies 
of both countries and to work on innovative approaches to 
security and competitiveness.
    Safety and security are cornerstones of CN's operations. We 
are proud to be actively engaged with government agencies in 
both the United States and Canada to ensure the security of our 
operations while also meeting the needs of our customers. We 
urge the subcommittee to ensure that screening, targeting, and 
inspection activities by government agencies associated with 
cross-border commerce are governed by these risk management 
principles. We also urge that agencies with border enforcement 
responsibilities work together to ensure effective and 
coordinated screening and inspection processes so as to not 
needlessly impede legitimate commerce.
    Madam Chairwoman, thank you again for the opportunity to 
testify, and of course, I would be pleased to answer any 
questions you or any of the Members might have.
    [The statement of Mr. Koerner follows:]
                    Statement of Timothy J. Koerner
                             April 5, 2011
    Madam Chairwoman and Members of the subcommittee: Thank you for the 
opportunity for Canadian National Railway Company (CN) to testify on 
using resources effectively to secure border ports of entry and CN's 
experience with cross-border commerce and security initiatives.
    Like other large railroads operating in the United States, CN is a 
Class I railroad, as defined by the U.S. Surface Transportation Board. 
CN is a publicly-traded company, with extensive North American freight 
rail operations. In addition to our transcontinental operations across 
Canada, CN operates in 16 U.S. States. The smooth yet secure flow of 
legitimate commerce between Canada and the United States is critical to 
the economies of both countries and to CN.
    CN's traffic across the U.S./Canada border includes automobiles, 
fertilizer, forest products, grain, intermodal, metals and minerals, 
and petroleum and chemicals. Roughly one-third of CN's revenues are 
generated from cross-border commerce. Combined with the fact that CN 
operates a scheduled railroad, the smooth flow of cross-border commerce 
is essential to our operations. CN consistently strives to meet our 
customers' needs for timely and efficient delivery; a fluid border is 
essential to this on-time service.
                 rail cross-border security initiatives
    CN has a long-standing working relationship with U.S. and Canadian 
Customs authorities on efforts to enhance cross-border security. Those 
efforts have increased substantially in the years since the September 
11, 2001 attacks. Indeed, the governments of Canada and the United 
States have been actively engaged since 2001 on a broad range of border 
security initiatives, embodied in the Smart Border Declaration and in 
subsequent programs. CN has been a willing partner in U.S. and Canadian 
initiatives intended to enhance security while also ensuring the smooth 
flow of legitimate cross-border commerce.
    CN was the first North American rail carrier participant in U.S. 
Customs and Border Protection's (CBP) Customs-Trade Partnership Against 
Terrorism (C-TPAT), and we have taken very seriously our responsibility 
to make needed investments and ensure the security of our operations 
meet the C-TPAT criteria. CN also has been a participant for several 
years in the Canada Border Service Agency's (CBSA) comparable Partners-
in-Protection (PIP) program.
    CN has a police presence on both sides of the international border. 
CN Police officers work in collaboration with Federal, State, 
provincial, local, and Tribal law enforcement agencies toward the 
common goal of safeguarding our nations and communities against harm. 
The CN Police monitor border crossings with law enforcement personnel 
and the use of technical security equipment. The CN Police also conduct 
regular liaison activities and joint force operations with both U.S. 
and Canadian customs agencies in an effort to maximize the 
effectiveness of our collective resources.
    Also of note, CN and Canadian Pacific Railway in April 2003 signed 
a Declaration of Principles with CBP and CBSA's predecessor agency, 
under which 100 percent of rail traffic at border crossings equipped 
with non-intrusive inspection technology would be screened at the 
border by this equipment. As a result of this Declaration and the 
subsequent expansion of the program across the border, 100 percent of 
CN's rail traffic entering the United States from Canada at present is 
screened by VACIS equipment, a far higher proportion than for any other 
transportation mode.
    The effectiveness of the gamma ray screening is enhanced by the 
data transmitted electronically by rail carriers to CBP at least 2 
hours in advance of a train arriving at the border for entry into the 
United States. As a result, CBP personnel can more effectively target 
at-risk shipments for additional screening and, if necessary, 
inspection as well as to more accurately evaluate the cargo in each 
conveyance as a train passes through the VACIS equipment. The advance 
data transmittal was a provision of the Declaration of Principles as 
well as more broadly implemented for rail and, with other applicable 
time frames, for all transport modes in Section 343 of the Trade Act of 
2002 (Pub. L. 107-210), as modified by Section 108(b) of the Maritime 
Transportation Security Act of 2002 (Pub. L. 107-295).
    CN also complies with the requirements of the Bioterrorism 
Preparedness and Response Act of 2002 (Pub. L. 107-471), which requires 
advance notification to the Food and Drug Administration (FDA) of food 
that is imported or offered for import into the United States. We also 
are subject to U.S. Department of Agriculture (USDA) agricultural 
inspections of our cargo imported into the United States.
    Last, much of the cargo transported by CN across the Canada/U.S. 
border initially entered Canada through sea ports that are participants 
in CBP's Container Security Initiative (CSI), at which CBP and CBSA 
staff work together to screen cargo entering Canada and to target high-
risk cargo. Further, a large proportion of the traffic that enters the 
Canadian CSI sea ports sails from other CSI-participating ports outside 
of North America, which includes other security requirements. Most 
Canadian sea ports also participate in CBSA's Joint Targeting 
Initiative (JTI), through which CBP and CBSA share information and 
collaborate on inspections; this provides an additional layer of 
security.
                cn operations at the u.s./canada border
    CN crosses the U.S./Canada border at seven crossing locations, with 
a total of roughly 45 trains per day operating northbound and 
southbound across the border. Our largest operation is at our Port 
Huron, Michigan/Sarnia, Ontario crossing, at which we operate nine 
trains per day in each direction, with our crossing at Ranier, 
Minnesota our second-largest operation, with eight trains crossing the 
border daily in each direction.
    At each border crossing, we provide cargo manifest data to CBP at 
least 2 hours in advance of each southbound train reaching the border. 
When we arrive at the border, the train slows to 5 miles per hour to go 
through the VACIS machine. At the majority of border crossings, CBP's 
VACIS equipment is located on the U.S. side of the border. However, at 
the Port Huron/Sarnia and the Detroit, Michigan/Windsor, Ontario 
crossings, CBP installed this equipment on the Canadian side of the 
border to facilitate operations.
    When CBP wishes to conduct an inspection of a particular railcar or 
intermodal container, above and beyond the VACIS screening, we must 
stop the train with the targeted railcars or containers. In such cases, 
CN employs transborder specialists to assist Customs with the unloading 
and reloading of goods in railcars and intermodal containers. This may 
cause a train to have to cut that car and leave it behind, while the 
rest of the train moves through. In the case of intermodal stack 
trains, the railcars can be 200 feet in length and each carry up to 15 
containers. The railcar that is cut from the train, with the container 
or containers that have been identified for inspection along with the 
other containers not targeted by CBP, will then be picked up by another 
train after the inspection process has been completed. When inspections 
such as these are conducted, it often requires the train to move back 
and forth over the track many times to effect the desired result of 
cutting out a specific car or cars.
                          issues and concerns
    A key priority for CN is promoting harmonized border regulations 
between the United States and Canada wherever possible, while 
recognizing the unique priorities and sovereign rights of both nations. 
CN has long been engaged in efforts to encourage risk-based, compatible 
U.S. and Canadian border security regulations that address security 
issues while facilitating legitimate cross-border trade.
    More recently, we are pleased with the initiative announced on 
February 4 of this year by President Obama and Prime Minister Harper to 
pursue a perimeter approach to security, so as to accelerate the 
legitimate flow of people, goods, and services between the United 
States and Canada. The declaration by the two leaders noted their 
intent to use a risk management approach, to foster greater information 
sharing between agencies of both countries, and to work on innovative 
approaches to security and competitiveness.
    As part of this initiative, President Obama and Prime Minister 
Harper announced their intent to establish a Beyond the Border Working 
Group, composed of appropriate government officials from both 
countries, which will develop a joint Plan of Action to realize the 
goals of the leaders' declaration. The leaders also announced the 
creation of a Canada/U.S. Regulatory Cooperation Council, which is 
tasked with finding ways to reduce and prevent barriers to cross-border 
trade, while maintaining high standards of public health and safety and 
protecting the environment. Both governments are now engaged in a 
consultative process with affected stakeholders, in which CN is eager 
to participate actively.
                              conclusions
    Safety and security are cornerstones of CN's operations. We are 
proud to be actively engaged with government agencies in both the 
United States and Canada to ensure the security of our operations, 
while also meeting the needs of our customers. We urge the subcommittee 
to ensure that screening, targeting, and inspection activities by 
government agencies associated with cross-border commerce are governed 
by risk-management principles, taking into account the C-TPAT status of 
participants in the movements, the cargo manifest data transmitted in 
advance of the traffic's arrival at the border, and other factors 
relevant to the security of the cross-border operations. We also urge 
that agencies with border responsibilities work together to ensure 
effective and coordinated screening and inspection processes so as to 
not needlessly impede legitimate commerce.
    Madam Chairwoman, thank you again for the opportunity to testify. I 
would be pleased to answer any questions that you or Members of the 
subcommittee may have.

    Mrs. Miller. Thank you very much, Mr. Koerner. At this 
time, the Chairwoman would like to recognize Mayor Cortez for 
his testimony and welcome him to Washington.

     STATEMENT OF RICHARD F. CORTEZ, MAYOR, McALLEN, TEXAS

    Mr. Cortez. Thank you. Chairwoman Miller, Ranking Member 
Cuellar, and committee Members, thank you for giving me an 
opportunity to present our thoughts from our area to you today. 
I had a prepared presentation of my testimony here today but 
after listening to your opening comments, the Ranking Member's 
comments, and the other panelists' comments, I would like to 
rather maybe paraphrase and just kind of discuss some of the 
highlights of my testimony with your permission.
    Basically, my testimony is broken down into two parts. The 
first part is the imbalance of investment in our ports of entry 
and in between the ports of entry and the benefits that 
commerce has to our areas, and second is even though we do 
benefit from commerce and having these ports of entry, we also 
have some concerns that we have because we are on the border, 
and this does cause some problems being close to the border.
    In answer to the question of Congressman Rogers, he asked: 
Well, what personnel? Well, that information has already been 
provided by Rich Stana from the Government Accountability 
Office, which he estimated approximately 6,000 new inspection 
personnel and about $5 billion to bring in facilities.
    We talked about efficiency and wait times. You know, it is 
interesting how sometimes we measure things, and if we look 
from the beginning of the bridge and look at that vehicle and 
then say, okay, to the end of the bridge and we trace that 
time, when you say it was 5 minutes. Well, but the problem is 
that that car that got to the beginning of the bridge has been 
waiting for 2 hours to get to the beginning of the bridge. So 
how you track wait times is very important.
    But here is what we are asking for. We need to have more 
investment in our legal ports of entry. We talk about 
efficiency. How can you be efficient when you have antiquated 
facilities like we do have in Hidalgo? When you have all of 
this technology that requires electricity, we are down. Many 
times our electrical grid just went down. All our computers, 
everything in our legal port of entry just simply isn't 
working. Imagine what an inspector is going to have do when you 
are relying on just simple things like electricity, and at our 
port of entry we constantly are breaking down and having to use 
generators.
    So the investment of legal ports of entry, Madam Chairwoman 
and other committee Members, is extremely important because, as 
you have already stated in your opening comments, it seems like 
we are starting to do a pretty good job in defending our ports 
of entry. We are capturing most of the violators, but why is it 
that we are not doing that in our legal ports of entry?
    Well, that goes into my testimony regarding how we are 
affected by being close to the border. You see, the bad guys 
cross in those legal ports of entry, and they come and do 
violent crimes or certain business in our communities and then 
they try to run back to that legal port of entry and leave. But 
now we have no communication in place, no connectivity. There 
is no connection between us saying: Hey, wait a minute, there 
is the perpetrator that just left our city that is entering or 
getting close to your port of entry, you know, how do we notify 
you, how do we tell you that that is happening.
    So what we are suggesting is that the reason that the other 
side is so successful in breaching our security is they studied 
us very well and they have been able to--how can they breach 
our security 70 percent of the time when we have the canines. 
We have so many people. I mean, it begs the question: Well, why 
is that happening? Well, they know us very, very well. Well, we 
need to do the same thing on our side. We need to have 
surveillance and intelligence because we don't want to become 
the breeding ground for criminal activity, and if we don't have 
that personnel and intelligence working for us on our side and 
then be able to communicate all our law enforcement agencies 
that are empowered for this enforcement, then we cannot be 
efficient.
    So at the end, Madam Chairwoman, what we are asking is that 
help us be more efficient by investing in our legal ports of 
entry. We have two in the city of McAllen. We own two bridges. 
One is an old bridge that needs investment. The other one, we 
are not efficient because we don't accept any commercial truck 
traffic. Well, imagine if you want to be efficient in commerce 
and you have only one bridge that allows commercial traffic, 
and yet there is other bridges all around. We need a system of 
efficient bridges, not one bridge.
    The other thing is that the Commissioner here from Customs 
said it takes a long time by the time you make a decision and 
you have the layers of funding ready in place to get something 
done. Right now we don't have any southbound inspections in our 
bridge. It is a brand new bridge. We have been there less than 
2 years and we don't have any southbound inspections and we 
don't have any northbound commercial truck traffic.
    Well, I will tell you what is happening in the real world. 
The real world, the business world, they want to find the 
lowest cost. For the lowest cost right now to bring in goods 
and products into the United States, from a lot of the produce 
companies that used to go to the Nogales port is now coming to 
Texas because they are saving $1,500 or $1,800 more in freight. 
Well, business is readjusting itself to our area, yet we don't 
have the necessary infrastructure and personnel to take care of 
that business.
    We cannot be secured as a country if we don't have economic 
security.
    My time is up. Thank you.
    [The statement of Mr. Cortez follows:]
                Prepared Statement of Richard F. Cortez
                             April 5, 2011
    Chairwoman Miller, Ranking Member Cuellar, committee Members: Thank 
you for this opportunity to share my views on how to secure the border.
    Without a strong and growing economy on the border, we cannot have 
a growing National economy or achieve our security goals. Trade 
directly generates one-third of the U.S. economy. Land ports of entry 
are responsible for more than three-quarters of a trillion dollars in 
trade annually with Canada and Mexico.
    On the Southwest border, we need to assure that our economic 
climate not only helps fund the security measures we need, but also 
provides opportunity to the people in the region so they become part of 
the solution and are not tempted to become part of the problem.
    To achieve our economic security, we need well-built, well-
equipped, and well-staffed ports of entry that can facilitate 
legitimate trade and travel and interdict lawbreakers.
    We are grateful that Senators Cornyn, Graham, Kyl, and Feinstein 
have asked the Senate Judiciary Committee to hold a hearing on U.S. 
ports of entry and infrastructure on the Southern border.
    We have an imbalance of investment and results on the border. Since 
1993, we have increased our investment 800 percent in Border Patrol 
personnel, mobility, communications, and technology. That effort 
between the ports has been successful; the Border Patrol intercepts 70 
percent of lawbreakers across the border; in the El Paso sector, the 
success rate is 90 percent.
    In contrast, we have let the land ports of entry fall into 
disrepair. We currently have ports like the McAllen Hidalgo-Reynosa POE 
in which the electrical grid is outdated and the infrastructure is 
antiquated at a time when the most advanced technology and 
infrastructure is needed to secure our borders. Over the same period, 
the land ports budget has risen only 17 percent and our ability to 
intercept criminals only 28 percent of the time.
    That bears repeating. Between the ports, we catch the criminals 70 
percent of the time. At the ports, we catch them less than 30 percent. 
That is an imbalance Congress must help to correct.
    The criminal cartels are exploiting our weakness. According to the 
Department of Justice, 90 percent of the drugs smuggled into the United 
States enter through the land ports. The physical bulk cash that exits 
goes exclusively through the ports. There is no data on firearms, but 
anecdotally, the ports are where they too traverse the border.
    To achieve our economic security, we need well-built, equipped and 
staffed ports of entry that can both facilitate legitimate trade and 
travel and interdict lawbreakers. We need those improvements for our 
National security, as well.
    Rich Stana at the Government Accountability Office estimates we 
need 6,000 new inspection personnel and more than $5 billion to bring 
the facilities up to snuff. We don't expect you to wave a fiscal wand 
and achieve this overnight. I do not advocate taking anything away from 
the Border Patrol. But if there are additional resources to be 
allocated, this year or next year, they should go to the ports of entry 
as a first priority.
    Secure and efficient ports of entry are very important to cities 
like McAllen. They create jobs, sustain our economy, and improve our 
quality of life. They expedite legitimate trade and traffic to flow 
across our border and in our case, contribute to McAllen's $3 billion 
retail industry. Without Federal-local coordination, efforts to 
simultaneously secure ports and make them more efficient will not be 
possible.
    For example, it makes no sense to have an international bridge 
where commercial truck traffic is not allowed to cross. Right now the 
truck industry is moving away from crossing through the Nogales Port in 
Arizona to our ports in South Texas. This makes it necessary to 
increase our capacity to serve this new traffic. We cannot do that if 
some of our bridges cannot accept commercial truck traffic like our 
Anzalduas Bridge in McAllen. Our presidential permit states that a 
southbound commercial truck facility should have been operational prior 
to us opening the Anzalduas International Bridge.
    However, we also have no southbound commercial truck traffic. 
Please help us expedite that and allow us to better serve our area 
businesses.
    Year 2015 is just around the corner and we have no funding in place 
for the construction of a northbound commercial traffic facility at the 
Anzalduas International Bridge.
    While our legal ports of entry have a positive effect on our 
commerce, they have a negative effect on our border communities because 
persons illegally in the United States commit crimes in our cities and 
then they try and make their run back into Mexico.
    One example would be what we experienced in 2010. Around 9:30 p.m., 
closing time, in one of our busiest shopping intersections, four (4) 
suspects, all males from the state of Guerrero, Mexico and connected to 
drug activity and illegally in our country shot and killed another 
person. The victim was also a male from Mexico. He was shot twelve (12) 
times. All four suspects then simply boarded their vehicles and raced 
to Mexico. In this case we were very lucky that we were able to 
apprehend them just short of the port of exit. Currently, there is no 
communication system which allows us to alert our port of entry of what 
is approaching or leaving the port.
    Drug trafficking is nothing new in our area. During 2009/2010 our 
officers seized:
  <bullet> 75,000 pounds of marijuana,
  <bullet> 2,000 pounds of cocaine, and
  <bullet> 350 pounds of crystal meth.
    Whereas before it was rare, today it seems to occur more frequent.
    In a recent arrest, our officers seized 12,000 pounds of marijuana, 
150 pounds of cocaine, one (1) 70 caliber machine gun, two (2) military 
issue flak jackets, two (2) hand grenades, six (6) semi-automatic 
weapons and 1,800 pounds of assault rifle ammunition. Eleven (11) 
persons were arrested including a Texas National Guardsman.
    We are in an area of many political jurisdictions. We need a Border 
Financial Crime Task Force with personnel to provide intelligence and 
surveillance. It needs to be well connected with all of our law 
enforcement agencies. We must deter the idea that persons can simply 
run back undetected to Mexico after committing crimes here. We need 
uniformed south-bound checks at all ports of entry specifically looking 
for fire arms and cash.
    Thank you for allowing me to share this information with you, and 
on behalf of all our citizens, we thank you for your service to our 
country.

    Mrs. Miller. Thank you very much, Mayor. I appreciate those 
comments, and as you say, really the impetus for this hearing, 
as Ranking Member Cuellar and I have talked about this a number 
of times, you know, you see a lot of the attention on the 
Southwest border really being paid attention to what is coming 
across through the deserts and in between the ports of entry 
and everything and, as we have focused on all of that, somehow 
we just want to make sure that we are really looking at the 
resources that are necessary to secure our ports of entry where 
so much of this is coming across and we do have that issue, I 
think, again, on both the borders.
    My first question would be to Mr. Koerner from Canadian 
National. Again, we appreciate your willingness to come today 
and the testimony that you provided to this committee. You 
mentioned about your VACIS machine, and I have had an 
opportunity to be out there and actually see it and see some of 
the images and various things that you have found there, and I 
think it is a fantastic technology. If I am correct, you are 
essentially screening 100 percent of everything that goes 
through your tunnel; is that correct?
    Mr. Koerner. That is correct. All seven of our border 
crossing locations are 100 percent VACIS screened.
    Mrs. Miller, Now, in regards to the one that comes under 
the St. Croix River, I have often said and I just want to make 
sure I am correct in saying this, that is the busiest rail 
entry into the Nation. Is that correct? You mentioned your 
volume there, 9 trains per day. Could you quantify that a bit?
    Mr. Koerner. For the traffic that flows between Canada and 
the United States, CN is the largest of all of those Class I 
trains that would be moving freight from Canada into the United 
States and vice versa, and of our 70 ports of entry, the Port 
Huron-Sarnia border crossing is the largest for us.
    Mrs. Miller. What does that mean, 9 trains a day?
    Mr. Koerner. So a train obviously can carry many, many 
containers or carloads but on an annual basis we bring 
somewhere between 1,000,000 and 1,100,000 containers or cars 
across the border.
    Mrs. Miller. I see. Could you give us just an example? You 
were mentioning about when the manifest perhaps doesn't match 
up with what the VACIS machine is seeing there. Could you sort 
of flush that out a bit so we can understand what triggers 
something there?
    Mr. Koerner. Certainly. At the border, and we are talking 
again today about security primarily but a lot of things happen 
at the border. CBP isn't just looking for the drugs and the 
guns and the money. They are also doing things on behalf of 
USDA and FDA and other Government agencies who say: Hey, we 
also want to make sure that you are checking for X, Y, and Z. A 
lot of the delays that occur at the border I think occur 
because of these things as well.
    But with regard to VACIS if we have some cars, cars are so 
simple because it is clear that they are rail vehicles but 
let's talk about a container that is closed, not easily looked 
into. It is packed tightly and it has come from Europe and it 
is coming through the port of entry at Port Huron. That 
information is transmitted to us electronically. It is through 
a system called EDI, Electronic Data Interface. It is 
information that we share both with the Canadian authorities 
and with the U.S. authorities.
    By the way, that is critical that we are all in the same 
system, so that we are all reading the same type of material 
and we are not having to digest or change criteria from DHS to 
beta or something like that, and so as that material is 
transmitted they have got 2 hours at a minimum, probably more, 
to go ahead and see if there is information about where that is 
coming from, the goods that are in there that they want to 
target. Let's say they don't need to target, they say hey, what 
we are reading here insofar as this advanced data that is 
coming to us says that this is good to go, but we know that it 
is supposed to be widgets coming through, and as the train goes 
through VACIS we see that it is not widgets but it is squares. 
That X-ray then would say, hey, we have got an issue that we 
need to do a secondary search. Just the same way you would be 
searched at an airport, they would want to take that particular 
car off of the train and unload that car and make sure that the 
images that they saw actually correspond to what they believe 
they were expecting.
    That of course can cause a lot of issues for a train 
because trains are hooked up many cars long and means you have 
to stop and go back and forth and to cut a car or container out 
of a train there is lot of work involved.
    Mrs. Miller. Thank you. I appreciate that.
    My other question would be to Stan Korosec, who we again 
appreciate you coming to Washington as well. It has been a 
pleasure to work with you. I look forward to continue to do 
that in the future.
    You were mentioning about the manpower and you think it is 
okay. But we have had a lot of experience of huge backups at 
the Blue Water Bridge, both directions, for various reasons. 
One of the things you mentioned, Stan, was about the CBP. I 
wrote some notes down when you were talking about the stacked 
booths, that this is a subject that has been broached. But then 
there hasn't been apparently a follow-up. I am not quite sure 
what you are talking about there. How could we assist you with 
that?
    Mr. Korosec. This actually came out of the field office in 
Detroit. Mr. Chris Perry, the DFO there, was a fantastic 
gentleman, as they all are in the area there in working 
together. The idea was in the interim--before this, before the 
new plaza hopefully gets funded and built, we have got to do 
something in the interim. A staggered booth--and I believe they 
use these down in San Ysidro and I know they have one at the 
Detroit Windsor tunnel they just put in, where you take an 
existing booth which now becomes just a stop area. Behind that 
booth is a series of maybe three or four other ones. In our 
case, it would be four booths, kind of angled. You think coming 
into Canada, the Blue Water Bridge, the far right lane there. 
Coming into the United States, that would be a stop, and then 
you would have a series of four booths there. So you wait there 
until the next available booth. So it actually gives us 
increases of three more inspection booths, which is 
significant. One more inspection lane will help the throughput.
    The proposal also called for three stacked booths, which 
means your primary booth; and then behind that you have another 
one. So if there is nobody there, the first car would go past 
the first one, stop at the second. They are stacked like that. 
It doesn't give you the full capacity of an extra lane, because 
if the car in front of you is taking longer for inspection, you 
are behind it and you are finished and you have got to wait. 
But still, it is a great idea and something that we are hoping 
that can be done hopefully for the summer 2011.
    Again, this was proposed in 2009 or in November last year. 
We at Blue Water Bridge felt so strongly about it, and we know 
there are funding issues with the CBP that our board of 
directors says, hey, we will contribute financially to this 
project to make sure it moves ahead and it doesn't sit on a 
desk somewhere here in the District of Columbia, gathering 
dust, because it is going to cost money to do. This way we can 
achieve legitimate trade and travel and it doesn't affect 
security.
    Then later on in January, we have some brand new inspection 
booths that we won't be installing for a while. I offered them 
up as a loan or whatever to help keep it moving forward, in 
addition to any financial compensation that we could provide to 
get this project going. We had one conference call in March to 
say we are going to have another conference call and that is 
the last I have heard.
    Mrs. Miller. Thank you. Well, you and I will talk some more 
about that and see what we can do to have that happen. That 
would be a great idea.
    With that, I would like to recognize the Ranking Member, 
Mr. Cuellar.
    Mr. Cuellar. Thank you very much, Madam Chairwoman. I want 
to thank you all for being here, in particular the mayor, from 
part of my Congressional district. Mayor, thank you very much. 
It is too bad that our CBP folks left, because I think it is 
always good that they listen to the end users or the folks that 
are involved on a day-to-day basis, and hopefully sometime in 
the future like you say, we can get everybody sitting there so 
they can hear what suggestions that you all have.
    The stacking is something that we brought up years ago, and 
I know CBP at one time said that it was not going to save more 
time. I hope they have changed their mind on that. To me, it is 
only common sense that if you bring in two cars or whatever 
number--but let us say two cars at one time--you can be a 
little more efficient, especially for footprints in areas where 
there is so--you can't expand. Anzalduas has a lot of space, 
but in some areas they are pretty constrained. So only way you 
can expand, then put the stack thing--has anybody heard 
anything? Has CBP changed their mind on this? Because I know 
years ago, 4 or 5 years ago when I brought this up to them, 
they said they had looked into it and it was going to be more 
time-consuming.
    Mr. Korosec. Like I said, it doesn't give you 100 percent 
extra lane. I think the figures that they provide us is about 
60 percent increase in capacity. It would work perfectly at 
Port Huron because, like I said, the plaza is elevated 26 feet 
in the air and there is no room to go this way, so you have got 
to go this way. The staggered booth kind of achieves the same 
thing.
    I know that in the Detroit Windsor Tunnel, they just did 
that, which would give--which got them one extra lane down 
there. At San Ysidro, I have been down there and I know that is 
employed there.
    Mr. Cuellar. Right. I think it is a good idea. In areas 
that were constrained, we certainly have to think outside the 
box how we can move that quicker.
    Mayor, let me ask you a couple of questions. We need more 
infrastructure dollars, you are correct. We need more 
personnel. You are correct about that. What recommendations do 
you have for the processes as to how we can improve the 
efficiency of the movement of goods and people that are here 
for legitimate purposes? I know you have got a lot of 
experience on economics. Can you give us some suggestions that 
you would have?
    I know you mentioned one about better communication, and I 
agree with that. But any other ideas and thoughts on processes, 
how we can move things quicker?
    Mr. Cortez. Sure. Thank you. We have two bridges in our 
area that we are on. One is the Anzalduas, which is a brand new 
bridge. Right now we are not allowing any commercial truck 
traffic to go through Anzalduas. So one thing we could do 
immediately is to allow empties, south traffic going south that 
takes not a lot of effort, something we can do quickly.
    Also, we need to accept north-bound traffic that--right 
now, if the decision were to be made today to do that, it would 
take at least a 3- or 4-year cycle time to get all of the 
budgets and everything, personnel. That is a long time, because 
you cannot have efficient trade if you don't have a system of 
bridges helping you do that. So a very quick thing would be 
that.
    Obviously, if I were going to go to the doctor, I would 
like to go to a doctor early in the morning than late in the 
afternoon. Because if I am going to see the doctor who has seen 
100 patients already, I would rather for him to see me early. 
People get tired, and there has to be some correlation between 
how many hours somebody works and shifts and things like that.
    So, obviously, the most personnel, the most technology that 
we have, and the best equipment is going to make us more 
efficient not only to process legal trade, but also to catch 
the bad people.
    Now, getting back to the threat of violence. We live on the 
border and those people can cross daily, often, and if they 
commit any crimes, then it is a quick 4-, 5-, 6-minute ride 
from our city back to one of those ports of entry.
    So obviously there has to be some system of communication 
with all of those that are involved in law enforcement. I don't 
know where we fix responsibility, but I can tell you in talking 
to my police chief and our people, we are lacking in that 
communication. We need to be able to quickly tell someone there 
has been a perpetrator in our city and probably, in all 
likelihood, they are running towards your exit port. We don't 
have that and I think that would be helpful.
    I think those southbound inspections--again, nobody likes 
to hear about more inspections, because it creates more lines 
and more obstacles in doing things. But from our perspective, 
it is a needed thing because there are bad things that are 
going southbound.
    Mr. Cuellar. Mayor, I want to thank you very much. My time 
is up. But I would ask you if you can flush out this 
communication. I like the suggestion you have, and if you could 
submit that to the committee, we would appreciate it.
    Thank you very much. Thank you, Madam Chairwoman.
    Mrs. Miller. I thank the gentlemen very much and I also 
appreciate his comment about whether or not CBP should have 
stayed here so that they could have heard this testimony. I 
think that would have been helpful. But then of course it would 
have begged the question: Why couldn't they just sit on the 
same panel with them? Obviously again, I have a lot of 
heartburn with that decision and the posture that the Secretary 
has taken toward this committee, which I think is very 
unfortunate, and I don't know why.
    But at any rate, the Chairwoman now recognizes the 
gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Madam Chairwoman, and to the 
Ranking Member. Let me thank both of you for this hearing. I am 
delighted to have been able to arrive before the conclusion of 
the hearing. I apologize for not hearing all of the testimony. 
I do want to thank the Chairwoman coming from Michigan and 
making sure that we know full well that there are two borders, 
Northern and Southern border. I can say that as one of the 
Members on this committee, that I have been to the Northern 
border quite extensively and am well aware of the concerns 
there. I would attribute the needs of that border as much 
importance as the Southern border.
    Because of the uniqueness of the Southern border, Mayor 
Cortez, I want to first of all thank you for your testimony and 
allow me to pursue maybe a slightly different line of 
questioning, and I think your testimony is enormously 
instructive. If I might just quickly make note of the fact that 
you have commented that the Border Patrol personnel in the area 
between ports have increased investment 800 percent. But I 
think the big numbers are they have intercepted bad guys 70 
percent across the border and their success rate is about 90 
percent. We are grateful for that. That is the land between 
ports.
    But isn't it interesting that we come to the land ports and 
the infrastructure there is, if you will, very limited. I want 
to thank this committee, but I also will acknowledge that there 
will be a hearing--and I hope there will be some action behind 
that hearing when the Senate holds a hearing to discuss the 
importance of infrastructure.
    So my first question to you is: Is this a good time to cut 
into what are vital needs of infrastructure that, in my 
understanding of what you are saying, will generate income, 
revenue, and taxation if we can fix the land ports with better 
infrastructure?
    Mr. Cortez. Yes. We cannot have security without economic 
security, and so much of our trade comes to legal ports of 
entry. In the last years, we just simply have neglected to 
continue to make financial investments for our legal ports of 
entry. So we totally agree with that, Madam Congresswoman.
    Ms. Jackson Lee. So Federal funding for infrastructure 
would be a real investment, and this would not be the time to 
cut that kind of investment?
    Mr. Cortez. Absolutely. I couldn't agree with you more.
    Ms. Jackson Lee. Let me cite another number for you. 
According to the Department of Justice, 90 percent of the drugs 
smuggled into the United States entered through the land ports. 
That is actually the ports where people are supposed to enter. 
You would think that someone else, just with that information, 
would say oh, I know where they come, they come in between. But 
you are giving us a fact, as the mayor on that border, that 
that influx comes through those land ports where there is a 
limited infrastructure. That doesn't make sense, does it, 
Mayor, in terms of our investment? That is where we should get 
the technology, increase the number of officers there.
    Mr. Cortez. That is correct, Madam Congresswoman. Also our 
data was verified by the Secretary himself as well as the CBP, 
and a study made by the University of California in San Diego. 
So there is an abundance of information that confirms those 
percentages.
    Ms. Jackson Lee. I am a champion on Texas and, as I said, I 
am very grateful to the Chairwoman for enlightening me on the 
issues of the Northern border.
    But I just note in your testimony as well, you indicated 
that trucks are beginning to move away from the port in 
Arizona, coming to our port. Again, infrastructure is needed to 
make that a more viable pathway, is that correct, if they start 
coming in large numbers?
    Mr. Cortez. Yes, ma'am. It is just like Walmart. If you 
have more customers, you need more doors for them to come in 
and more cash registers to serve them as they are leaving.
    Ms. Jackson Lee. I just want to follow up on this 
questioning as well. Let me just cite another note that you 
made that I think is very important. You mentioned the recent 
arrests where officers seized 12,000 pounds of marijuana, 150 
pounds of cocaine. Let me thank the local law enforcement for 
their work and hope they are benefiting from the Cops on the 
Beat program and they get extra dollars, 70 caliber machine 
guns, two military-issued flak jackets, two hand grenades, six 
semiautomatic weapons and 18,000 pounds of assault rifle 
ammunition.
    Mr. Mayor, you are a mayor that has to address the security 
of your citizens. Can we do better by you in terms of what I 
call gun regulation or the enhanced activity to help stop gun-
running that is coming out of the United States and going into 
Mexico?
    Mr. Cortez. Madam Congresswoman, I really would hate to 
offer an opinion there because it would be a very lay opinion. 
I can tell you that I have a lot of confidence in our law 
enforcement people in McAllen. With the right resources, the 
right network of intelligence and surveillance, I think we can 
do a better job.
    Ms. Jackson Lee. Do you think it would help if we had laws 
in the United States that would stop the gun-running going into 
Mexico?
    Mr. Cortez. Well, anything that would stop cash and guns 
going into Mexico would benefit both countries, the United 
States and Mexico. So anything that can be done would be 
helpful.
    Ms. Jackson Lee. Mayor, you are giving me wide latitude on 
that, and I am certainly going to be looking for anything and 
something, because those guns kill law enforcement officers.
    I just end on this note. I understand recent news has just 
indicated--and I am not going to point out the particular area 
on the border. I would be inaccurate. Two individuals were 
sitting at a land port and were shot dead in their car. 
Obviously it may have been drug cartel-related, but they were 
in line and they were assassinated at that point. That seems to 
me that your point in your testimony about more dollars for 
infrastructure and officers at that land port is a very 
important message for this Congress to hear.
    Mr. Cortez. Absolutely. We think that would be a good 
investment because you are going to be receiving double 
benefits. You are going to be enhancing the efficient trade in 
our country as well as having and adding resources to interdict 
criminals.
    Ms. Jackson Lee. Thank you, Madam Chairwoman, and I yield 
back.
    Mrs. Miller. I thank the gentlelady for her questions. I 
just remind all the committee Members that the hearing record 
will be held open for 10 days if there are any other questions 
or comments, and we will try to get those responded to as well.
    I certainly want to thank all of the witnesses for their 
testimony today. We are certainly appreciative of it. I think 
it has been a very good hearing.
    It certainly has enlightened many of us on the committee 
here about some of the challenges that are faced by our ports 
of entry, by various agencies, and all the stakeholders 
involved. We have a lot of work to do as a Nation to be able to 
secure those and get the resources that we need out to the 
various ports of entry, wherever they are, the north, the 
south, et cetera.
    So again, we thank you all for coming, taking the time out 
of your schedule to come to Washington and participate in this 
hearing today.
    With that, the committee will stand adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
